1a
APPENDIX A
United States Court of Appeals
for the Federal Circuit
ROBERT M. SELLERS,
Claimant-Appellee
v.
ROBERT L. WILKIE, SECRETARY
OF VETERANS AFFAIRS,
Respondent-Appellant
2019-1769
Appeal from the United States Court of Appeals
for Veterans Claims in No. 16-2993, Judge Mary J.
Schoelen, Judge Michael P. Allen, Senior Judge
Robert N. Davis.
Decided: July 15, 2020
KENNETH M. CARPENTER, Law Offices of
Carpenter Chartered, Topeka, KS, argued for
claimant-appellee. Also represented by JOHN F .
CAMERON, Montgomery, AL.
DAVID PEHLKE, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, argued for respondent-appellant.

2a
Also represented by ETHAN P. DAVIS, MARTIN F.
HOCKEY, JR., ROBERT EDWARD KIRSCHMAN, JR.;
BRIAN D. GRIFFIN, JONATHAN KRISCH, Office of
General Counsel, United States Department of
Veterans Affairs, Washington, DC.
BENJAMIN C. BLOCK, Covington & Burling LLP,
Washington, DC, for amici curiae National
Organization of Veterans’ Advocates, Inc., National
Veterans Legal Services Program. Also represented
by ISAAC CHAIM BELFER, FRANK CRAIG BROOMELL,
JR., JEFFREY HUBERMAN. Amicus curiae National
Veterans Legal Services Program also represented
by JOHN D. NILES, BARTON F. STICHMAN, National
Veterans Legal Services Program, Washington, DC.
____________________________________
Before DYK, CLEVENGER, and HUGHES, Circuit
Judges.
CLEVENGER, Circuit Judge.
Robert M. Sellers served honorably in the U.S.
Navy from April 1964 until F ebruary 1968, and in
the U.S. Army from January 1981 to February 1996.
Mr. Sellers currently suffers from major depressive
disorder (“MDD”). As a practical matter, this case
involves Mr. Sellers’ attempt to establish an earlier
effective date than the one currently assigned to him
for the compensation he receives due to his current
MDD condition.
Mr. Sellers has an effective date of September
18, 2009. He seeks an effective date of March 11,

3a
1996, the date he filed a formal claim 1 seeking
compensation for specifically identified injuries to
his leg, knee, back, finger, and ears. In a space on his
formal application labeled “Remarks,” Mr. Sellers
wrote “Request for s/c [service connection] for
disabilities occurring during active duty service.”
J.A. 140. Mr. Sellers contends that the law in effect
in 1996 requires his remarks to be understood as a
formal claim for compensation for his MDD, even
though his claim in no way refers to MDD, and thus
affords him the earlier effective date of his 1996
formal claim. The United States Court of Appeals for
Veterans Claims (“Veterans Court”) agreed that Mr.
Sellers’ claim based on MDD could suffice in the
absence of any reference to that condition. Sellers v.
Wilkie, 30 Vet. App. 157 (2018). The Secretary of
Veterans Affairs challenges the Veterans Court’s
decision, arguing that a legally sufficient formal
claim must identify, at least at a high level of
generality, the current condition upon which the
veteran’s claim for benefits is based. 2 F or the
reasons set forth below, we agree with the Secretary.
In VA parlance, a formal claim is one made on a
particular form specified by the Secretary. As early as 1962, VA
regulations referred to “Original claim” as “an initial formal
application on a form prescribed by the Administrator. 38
C.F.R. 3.160(b) (1962).
1

Whether a formal claim must refer at least generally to
the condition on which a veteran’s claim for compensation is
based is no longer questionable. Since March 24, 2015, the VA’s
regulations require that a formal claim must provide “a
description of any symptom(s) or medical condition(s) on which
the benefit is based….” 38 C.F.R. 3.160(a)(4).
2

4a
Accordingly, Mr. Sellers is not entitled to the earlier
effective date he requests.
I
On September 18, 2009, Mr. Sellers filed an
informal claim 3 with the Department of Veterans
Affairs (“VA”) seeking compensation for a serviceconnected psychiatric disability, claimed as Post
Traumatic Stress Disorder (“PTSD”). A VA regional
Since as early as 1961, VA regulations allowed for
informal claims, with an informal claim defined as “[a]ny
communication or action, indicating an intent to apply for one
or more benefits under the laws administered by the Veterans
Administration, from a claimant….” 38 C.F .R. 3.155(a) (1961).
The 1961 regulation specified that an informal claim “must
identify the benefit sought.” Id. If no formal claim was of
record, an application form for a formal claim was sent to the
informal claimant for execution, and if an executed form was
received by the Administrator within 1 year from the date it
was sent to the claimant, it was considered filed as of the date
of receipt of the informal claim. Id. The purpose of informal
claims was to assist in filing formal claims and to serve a
placeholder role for an earlier effective date. Effective
March 24, 2015, the VA abolished the concept of informal
claim, and by regulation created an “intent to file” process. If a
veteran demonstrates an intent to file by one of three methods
delineated in the new regulations, see 38 C.F .R 3.155(b), the
date any of the three methods is performed serves as the
effective date for any formal application filed within one year
from the date of the “intent to file” submission. In contrast to
previous informal claims, an intent to file a claim does not
require the claimant to “identify the benefit sought,” see 79
F ed. Reg. at 57,665, but does require an identification of the
general benefit sought (such as compensation versus pension).
See 38 C.F .R. 3.155(b)(2) (2015); Veterans Justice Group, LLC
v. Sec’y of Veterans Affairs, 818 F .3d 1336, 1342-43 (F ed. Cir.
2016).
3

5a
office (RO) denied his claim in March 2011. But on
May 13, 2011, following an examination for mental
disorders at the VA medical center in Montgomery,
Alabama, Mr. Sellers was diagnosed with “major
depressive disorder, recurrent, moderate,” and given
a Global Assessment of F unctioning (GAF ) score of
50. 4
After a number of additional medical
examinations, and an appeal to the Board of
Veterans Affairs (“BVA”), Mr. Sellers was granted
service connection for MDD rated at 70%, with an
effective date of September 18, 2009, the date he
filed his informal claim for service-connected
psychiatric disability. The BVA decision stated:
The record shows that the VA received on
September 18, 2009, an informal claim for
service connection for psychiatric disability,
claimed as PTSD… It is noted that, when a
claimant makes a claim, he is seeking service
connection for symptoms regardless of how
those symptoms are diagnosed or labeled.
Clemons v. Shinseki, 23 Vet. App. 1 (2009).
J.A. 37. The BVA further noted that the effective
date of any claim is the date of receipt of the claim or
the date entitlement arose, whichever is later, citing
38 C.F.R. 3.400. As September 18, 2009 is the later,
At this time, and later, Mr. Sellers was granted
compensation for other service-connected injuries and
disabilities. Since only his claim for an earlier effective date for
his MDD is at stake in this case, we note but do not refer
further to his other bases for compensation.
4

6a
it was deemed the effective date. The BVA observed
“that [the] VA received no claim (informal or
otherwise) for service connection for any psychiatric
disability prior to September 19, 2009.” J.A. 38. With
regard to Mr. Sellers’ formal claim filed on March 11,
1996, the BVA noted that it “did not include any
claim for psychiatric disorder or problems that could
be reasonably construed as a claim for service
connection for psychiatric disability.” J.A. 38.
Mr. Sellers appealed the BVA’s denial of an
earlier effective date for his MDD to the Veterans
Court. In his brief to the Veterans Court, Mr. Sellers
faulted the BVA for reading his 1996 formal claim as
excluding any claim for psychiatric disability. In
addition to the several specific bodily injuries named
in his formal application, for which he sought
compensation, his formal claim also stated in block
40 5 (entitled “Remarks”): “Request s/c [service
connection] for disabilities occurring during active
duty service.” Mr. Sellers argued to the Veterans
Court that this language in the veteran’s pro se
filing should be sympathetically read to require the
VA to “grant all possible benefits.” Mr. Sellers
argued that this result is mandated the more so
because at the time the VA ruled on the formal
In VA F orm 21-526, block 40 states: “REMARKS
(Identify your statements by their applicable item number. If
additional space is required, attach separate sheet and identify
your remarks by their item number.” J.A. 140. The purpose of
block 40 is to allow amplification of information contained in
other numbered blocks in the F orm, such as blocks 17-19, in
which Mr. Sellers provided information about his specifically
claimed bodily injuries.
5

7a
application for benefits, it had “obtained his service
medical records and was aware of his in-service
medical treatment for his chronic mental disability.”
J.A. 70. Mr. Sellers’ brief to the Veterans Court cited
numerous VA medical records which referred to
medical treatment for mental disorders. Because his
medical records revealed in-service treatment for
mental disorders before his formal claim was filed,
Mr. Sellers argued that his request in essence for
“all possible benefits” in block 40 was sufficient to
state a claim for psychiatric disability as of the date
of his formal claim.
The Secretary responded to Mr. Sellers’ brief to
the Veterans Court, citing as the correct statement
of the law the following language in Brokowski v.
Shinseki, 23 Vet. App. 79, 84 (2009): “The essential
requirements of any claim, whether formal or
informal” are: “(1) an intent to apply for benefits, (2)
an indication of the benefits sought, and (3) a
communication in writing.” 6 In particular, the
Secretary emphasized that in Brokowski, the
Veterans Court held that a claim for anxiety and
In Brokowski, the veteran’s 1994 claim for serviceconnected peripheral neuropathy was granted in 2002, with an
effective date of F ebruary 15, 1994. The veteran had earlier
filed a claim in January 1977 for anxiety and depression which
made no reference to peripheral neuropathy, but which stated
“[t]his is also a claim for service[ ] connection for all disabilities
of record.” Brokowski, 23 Vet. App. at 82. Because the veteran’s
medical records as of 1978 contained evidence of vascular
disorder, the veteran argued that his request for all disabilities
of record sufficed to state a claim for peripheral neuropathy
and thus entitled him to an effective date of January 1977 for
his service-connected peripheral neuropathy disability.
6

8a
depression that also requested service connection for
“all disabilities of record” was insufficient to support
a claim for peripheral neuropathy. Because Mr.
Sellers’ March 1996 filing made no reference to a
claim for benefits related to a psychiatric condition
and only requested benefits for “disabilities
occurring during active duty service,” the Secretary
argued that this case is like Brokowski: Mr. Sellers’
formal claim failed to meet the required test for
identifying the benefits sought for a psychiatric
condition, and thus could not earn an earlier
effective date for Mr. Sellers’ MDD.
After oral argument, the Veterans Court issued
its opinion. See Sellers v. Wilkie, 30 Vet. App. 157
(2018). The Veterans Court first stated the position
of the parties. Mr. Sellers contended that his general
statement seeking service connection for disabilities
occurring during active duty service, combined with
the VA’s possession of his service medical treatment
records, sufficed to state a formal claim for MDD. In
practical terms, his March 1996 formal claim
purportedly entitled him to his requested earlier
effective date for his MDD rated at 70%. The
Secretary’s view was that Mr. Sellers failed to
initiate a formal claim for MDD because the
information in block 40 of the form provided no
information from which an MDD claim could be
deduced and the formal claim otherwise made no
reference to MDD.
The Veterans Court agreed with the Secretary
that “a general statement of intent to seek benefits
for unspecified disabilities standing alone is
insufficient to constitute a claim.” Sellers, 30 Vet.

9a
App. at 163. Nonetheless, the Veterans Court faulted
the Secretary for missing “a crucial additional factor
present here,” namely that at the time the RO
rejected Mr. Sellers’ formal claim, his medical
records in the RO’s possession revealed multiple
occasions on which he had received treatment for
psychiatric conditions, and an undisputed in-service
diagnosis of a psychiatric condition. Id. In the face of
Brokowski, and with no citation to other authority,
the Veterans Court held that Mr. Sellers’ general
statement in block 40, coupled with the VA’s
possession of his medical records showing previous
treatment for a psychiatric condition, may have
sufficed to qualify the March 1996 writing as having
initiated a formal claim for MDD, subject to one
condition. The condition requiring satisfaction to
validate the formal claim is that Mr. Sellers’ inservice psychiatric diagnosis be “reasonably
identifiable” from the medical records before the RO
at the time it considered his claim. In sum, the court
stated: “We hold that a general statement of intent
to seek benefits, coupled with reasonably identifiable
in service medical diagnosis reflected in service
treatment records in VA’s possession prior to the RO
making a decision on the claim may be sufficient to
constitute a claim for benefits.” Id. at 161.
The
Veterans
Court
noted
that
the
determination by the RO adjudicator of whether a
compensable condition is “reasonably identifiable”
from medical records, with only a completely
unspecified general request for benefits to go on,
may be difficult. Noting that medical records can be
voluminous, and may perhaps relate to several
conditions, the Veterans Court specified that the

10a
“fact finder must determine, based on the totality of
the service medical record, both qualitatively and
quantitatively, whether the condition at issue would
be sufficiently apparent to an adjudicator.” Id. at
163. Because the “reasonably identifiable” question
in any case is one of fact, which if in dispute would
be decided initially by the BVA, the Veterans Court
offered extensive guidance to the BVA:
To assist the Board in this endeavor, we
provide the following thoughts on the types
of factors that may be relevant to the Board’s
inquiry. These are not the only factors the
Board may find helpful as it makes its
assessment on this factual question. They
are merely illustrations of factors that may
be relevant to the Board’s assessment.
Qualitatively, for example, service medical
records might contain many notes of
conditions ranging from descriptions of
trivial conditions (a hangnail) to full-blown
diagnoses of significant illnesses (PTSD).
And the record might describe certain
conditions in great detail or, in contrast, in
only a passing manner. Or, for example,
medical records could contain vague
complaints of symptoms regarding a
condition but no formal diagnosis.
Quantitatively, the sheer volume of
medical records may potentially be a factor
in determining whether a condition would
have been reasonably identifiable to a VA
adjudicator. F or example, the Board could
decide that a single diagnosis reflected in a

11a
single page of a 2,000 page service record is
not reasonably identifiable.
Id. at 163-64.
As the “reasonably identifiable” issue had not
been decided in this case, the Veterans Court
remanded the case to the BVA for it to examine the
relevant medical records and decide if Mr. Sellers’
MDD claim was reasonably identifiable at the time
he filed his formal claim. In Brokowski, the Veterans
Court held that the veteran’s request for “all
disabilities of record” could not be used as “a
pleading device to require the Secretary to conduct
an unguided safari through the record to identify all
conditions for which the veteran may possibly be
able to assert entitlement to a claim for disability
compensation.” 23 Vet. App. at 89. But in this case,
the Veterans Court stated that:
[O]ur holding here is a narrow one. Only
records containing diagnoses that are
reasonably identifiable from a review of the
record may otherwise cure an insufficient
general statement of intent to seek benefits.
To continue Brokowski’s metaphor, we
caution that VA at most must participate in
a fully guided safari.
Sellers, 30 Vet. App. at 164.
To be clear, the Veterans Court did not decide
that Mr. Sellers filed a sufficient formal claim for a
psychiatric disability in March 1996. Instead, the
Veterans Court created a new legal test for

12a
determination of whether a general statement of
intent to seek benefits for unspecified disabilities
will suffice as a sufficient formal claim. The
Secretary filed a motion for panel reconsideration or
en banc review, arguing that the panel decision is
barred by governing statutes and regulations. The
panel denied reconsideration, en banc review was
denied, and judgment was entered on January 30,
2019. The Secretary timely appealed to this court.
II
We have jurisdiction over this appeal under 38
U.S.C. 7292, which generally restricts our
jurisdiction to final decisions of the Veterans Court.
Because the Veterans Court’s decision is not final,
we must determine whether this case satisfies the
three-part test set forth in Williams v. Principi, 275
F .3d 1361 (F ed. Cir. 2002), which determines
whether a non-final Veterans Court decision is
nonetheless within our statutory jurisdiction.
Jurisdiction will lie in such a case if all three parts of
the test are met: (1) there is a clear and final
decision of a legal issue, separate from the remand
proceedings, that will directly govern the remand
proceedings, or if reversed, would render the remand
proceedings unnecessary; (2) the resolution of the
legal issue adversely affects the party seeking
judicial review; and (3) there is a substantial risk
that the remand proceeding may moot the issue. Id.
at 1364.
This case satisfies the Williams test. The
Veterans Court decision created a clear rule of law
that will govern the remand proceeding, and remand

13a
proceedings would be unnecessary were we to reject
that clear rule of law. The contested clear rule of law
adversely affects the Secretary because it would
change the law to require formal claims to proceed
notwithstanding the absence of any identifiable
sickness, disease, or injuries reasonably identified in
the written claim. Finally, there is a substantial risk
that the BVA may on remand find a reasonably
identifiable timely diagnosis of a psychiatric
condition in Mr. Sellers’ medical record. Such a
finding would moot judicial review of the contested
rule of law in this case, because the Secretary cannot
appeal BVA decisions favorable to the veteran to the
Veterans Court. Smith v. Nicholson, 451 F .3d 1344,
1348 (Fed. Cir. 2006) (noting that 38 U.S.C. 7252(a)
precludes the Secretary from appealing a BVA
decision).
III
The Veterans Court held that a legally sufficient
formal claim can be stated despite the absence of any
statement in the claim that could be sympathetically
understood to identify a sickness, disease, or injury
for which benefits are sought. The parties address
that holding from opposite positions.
The Secretary challenges the Veterans Court’s
holding as legally incorrect. He argues that relevant
statutes and regulations impose a duty on the
veteran to identify the sickness, disease, or injury for
which benefits are sought. Pointing to both its
longstanding practice and the precedential holdings
of this court deciding the sufficiency of informal
claims, the Secretary states that the level of

14a
specificity required to identify a sickness, disease, or
injury is minimal. A veteran need not refer explicitly
to the name of an illness, injury, or condition.
Identifying a condition even at a high level of
generality will suffice. Identifying, for example, a leg
injury, memory loss, or eye problems would satisfy
the specificity test. And even if the words stated do
not name a condition, facts stated in the claim can be
sympathetically understood to support a claim. A
leading example comes from Roberson v. Principi,
251 F .3d 1378 (F ed. Cir. 2001). In that case, the
veteran’s claim included evidence of a medical
disability, and of unemployability, and asked for the
highest possible rating. That evidence was held
sufficient to support a rating for total disability
based on individual unemployability. The Secretary
also cites Shea v. Wilkie, 926 F .3d 1362 (F ed. Cir.
2019) as another instance in which a claim lacking
specific reference to PTSD was held sufficient. In
that case, in contrast to the situation here, the
veteran’s claim pointed to specific medical records in
which the veteran’s psychiatric condition was noted.
The Secretary emphasizes that while the VA’s claim
assessment process requires, consistent with our
binding precedent, that veterans’ claims be read
sympathetically, the condition on which the claim is
based must be identifiable from within the claim.
As legal support for necessary identification of
the condition for which benefits are sought, the
Secretary begins with 38 U.S.C. 501(a)(2), in which
Congress granted the VA authority to prescribe all
necessary or appropriate rules and regulations
regarding “the forms of applications by claimants.”
Mansfield v. Peake, 525 F .3d. 1312, 1317 (F ed. Cir.

15a
2008) (“Congress has provided the VA with authority
to establish requirements for ‘claims’ for veterans
benefits.”) In addition, Mansfield held that “[a]
specific claim in the form prescribed by the
Secretary…must be filed in order for benefits to be
paid or furnished to any individual under the laws
administered by the Secretary. 38 U.S.C.
5101(a)(2000).” Id.; see also id. at 1317 n.9 (citing 38
U.S.C. 3001(a) (1988)). The statutory command of
section 5101(a) is repeated in the pertinent
regulation, 38 C.F .R. 3.151(a). F urther, the veteran
is obligated to “present and support” his claim. 38
U.S. C. 5107(a).
As required under the statutes and regulations,
the veterans’ claim must be on the VA’s prescribed
form, and the claim must “contain[] specified
information … as called for by the blocks on the
application form.” Fleshman v. West, 138 F.3d 1429,
1431-32 (Fed. Cir. 1988); see also Rodriguez v. West,
189 F .3d 1351, 1353 (F ed. Cir. 1999) (a claimant
must “file a form providing specified information
that the Secretary has adopted.”) (emphasis added).
Since at least 1944, the prescribed formal claim
application form has been a variation of F orm 526.
In this case, the prescribed form was 21-526 (Apr.
1993), and that form requires claimants to identify
in block 17 the “nature of sickness, disease or
injuries for which this claim is made.” 7
When Mr. Sellers filed his formal claim, 38 C.F .R.
3.1(p) defined the term “claim” as “(p) “Claim” – “Application”
means a formal or informal communication in writing
requesting a determination of entitlement or evidencing a belief
in entitlement, to a benefit.” 38 C.F .R. 3.1(p) (1996). Neither
7

16a
As noted at the start of this opinion, the VA in
September 2014, after notice and comment
rulemaking, substantially revised the claim
initiation process, through regulations effective
March 24, 2015. The validity of those new
regulations was sustained, over challenge, in
Veterans Justice Group, LLC v. Sec’y of Veterans
Affairs, 818 F.3d 1336 (Fed. Cir. 2016) (“VJG”). The
Secretary argues that VJG is relevant to our
decision in this case. 8 We agree.
In VJG, the lawfulness of 38 C.F .R. 3.160 was
challenged as an unreasonable interpretation of 38
U.S.C. 5107(a), which provides that “a claimant has
the responsibility to present and support a claim for
benefits.” The interpretation question arose from two
subparts of section 3.160, which were viewed by the
party argues that this definition answers the question of the
degree of specificity required of a formal claim. The current
regulation defines “initial claim” as a “any complete claim” and
the “first initial claim” being further defined as an “original”
claim. A “complete claim” now requires “a description of any
symptom(s) or medical condition(s) on which the benefit is
based….”
Mr. Sellers argues that VJG did not consider the
Secretary’s position on claim identification, because the opinion
does not use the words “claim” and “identification” together,
and hence the case is not relevant to this case. As discussed
below, Mr. Sellers is wrong. The VJG decision is highly
relevant to this case. One of the challengers in VJG, National
Organization of Veterans’ Advocates, Inc., filed an amici curiae
brief in this case, advocating affirmance of the Veterans Court’s
decision. Notably, its brief does not take issue with the
Secretary’s interpretation of and reliance on our decision in
VJG.
8

17a
challengers as relieving the Secretary from the duty
to develop claims unrelated to the actual claims
presented by the veteran. Those subparts provide
that a complete claim “must identify the benefit
sought,” 3.160(a)(3), and contain “a description of
any symptom(s) or medical condition(s) on which the
benefit is based…,” 3.160(a)(4). The challengers
argued that under those terms, the VA would not be
required to “adjudicate benefits for any medical
condition that is not specifically identified and that
[the] VA deems ‘unrelated to those particular
claims’—no matter how apparent the condition is on
the face of the record.” VJG, 818 F.3d at 1355. Thus
understood, the challengers argued the regulations
were unreasonable as in conflict with the Secretary’s
duty to “consider all information and lay and medical
evidence of record in a case.” Id. at 1356 (quoting 38
U.S.C. 5107(b)). This court responded that section
5107(b) ensures consideration of all “relevant”
evidence but does not answer the question of
whether the Secretary is obligated to develop
evidence outside the scope of a pending claim. Id.
Treating that question as one raised under the first
step in the Chevron analysis, the court sustained the
validity of 3.160(a)(3)-(4):
We find the challenged portions of 38 C.F.R.
3.160(a)(3)-(4) … reflect a reasonable
interpretation of the statute. In fact, the
regulations do not substantially alter the
VA’s general practice of identifying and
adjudicating issues and claims that logically
relate to the claim pending before the VA.
See F inal Rule, 79 F ed. Reg. at 57,672
(“Although the rule requires claimants to

18a
specify the symptoms or conditions on which
their claims are based and the benefits they
seek, it generally would not preclude the VA
from
identifying,
addressing,
and
adjudicating related matters that are
reasonably raised by the evidence of record
which the claimant may not have anticipated
or claimed.”).
Id.
The regulations sustained in VJG, effective in
2015, do not apply to this case, but those regulations
do not substantially differ from the regulations that
do apply to this case. The statute at question in VJG,
38 U.S.C. 5107(a), burdens the veteran with the
obligation to “present and support a claim.” The
version of the same statute in effect at the time Mr.
Sellers submitted his formal claim imposed on the
veteran the same duty to present and support his
claim. 9 See Epps v. Gober, 126 F.3d 1464, 1468 (Fed.
Cir. 1997).
We agree with the Secretary that the relevant
statutes, regulations, and judicial precedent require
that a veteran’s legally sufficient claim provide
The version of Section 5107(a) applicable in Epps and
in 1996, specified that a claimant “shall have the burden of
submitting evidence sufficient to justify a belief by a fair and
impartial individual that the claim is well grounded.” 38 U.S.C.
5107(a) (1996). The requirement of a well-grounded claim has
since been abolished, but to establish a well-grounded claim at
least required identification of some condition on which the
claim was based. Epps, 126 F.3d at 1468.
9

19a
information, even at “a high level of generality,” 818
F .3d at 1356, to identify the sickness, disease, or
injury for which benefits are sought.
Mr. Sellers’ argument, in support of the Veterans
Court’s test, and in spite of the relevant statutes,
regulations, and judicial precedent discussed above,
that “[t]here is no claim identification requirement
when a claimant has filed a complete claim on a
prescribed VA form,” Appellee’s Br. at 13, is
unconvincing. According to Mr. Sellers, a formal
claim specifying at least one identified condition for
which benefits are sought invokes the Secretary’s
duty to assist, not only to fully develop the specified
condition but also to search the veteran’s records to
identify and fully develop any additional claim the
record may support. 10 Thus, according to Mr. Sellers,
the law requiring some degree of identification in a
claim of the sickness, disease, or injury for which
benefits is sought is “unavailing,” Appellee Br. at 15,
and “invalid,” Appellee Br. at 18, because it “is
completely at odds,” Id., with the Secretary’s
statutory duty to assist the veteran in developing all
claims the record may support. 11
Mr. Sellers does not argue that his 1996 form discloses
his MDD.
10

At the time Mr. Sellers filed his formal claim in 1996,
the Secretary’s duty to assist veterans was stated in two
regulations, 38 C.F .R. 3.159(a) (1996), entitled Department of
Veterans Affairs assistance in developing claims (“[The
Secretary] shall assist a claimant in developing the facts
pertinent to his or her claim”), and 38 C.F .R. 3.103(a) (1996),
entitled Procedural due process and other rights (“[I]t is the
obligation of VA to assist a claimant in developing the facts
11

20a
The Secretary’s duty to assist is not untethered.
At the time Mr. Sellers filed his formal claim, the
Secretary’s duty to assist was triggered by receipt of
a legally sufficient claim. Epps, 126 F .3d at 1469.
The same is true today; the Secretary’s duty to assist
begins upon receipt of a formal claim that identifies
the medical condition for which benefits are sought.
See 38 C.F .R 3.159(a)(3). This triggers the
Secretary’s duty to obtain the veteran’s medical
records, see 38 C.F .R 3.159(c)(2)-(3), 38 U.S.C.
5103A(c)(1)(A), and then to develop fully the stated
claim. Until the Secretary comprehends the current
condition on which the claim is based, the Secretary
does not know where to begin to develop the claim to
its optimum. We reject Mr. Sellers’ view that the
Secretary’s requirement that a formal claim must
identify the condition for which benefits are sought
is fatally inconsistent with the Secretary’s duty to
pertinent to the claim”). In 1996, 38 U.S.C. 5107(a) required
the VA to assist a claimant “in developing the facts pertinent to
the claim.” See Epps v. Gober, 126 F .3d 1464, 1469 (F ed. Cir.
1997) (no duty to assist under section 5107 until claimant
presents a proper claim). Mr. Sellers also cites the statutory
duty to assist, 38 U.S.C. 5103A, enacted in 2000. Subsection (a)
of the statute states that “[t]he Secretary shall make
reasonable efforts to assist a claimant in obtaining evidence
necessary to substantiate the claimant’ claim for a benefit
under a law administered by the Secretary.” Although the
language of section 5103A states the Secretary’s duty to assist
in different words than in previous regulations, the nature of
the duty is the same: “to fully and sympathetically develop the
veteran’s claim to its optimum before deciding it on its merits.”
Hodge v. West, 155 F .3d. 1356, 1362 (F ed. Cir. 1998); see also
Roberson v. Principi, 251 F.3d 1378, 1384 (Fed. Cir. 2001) (duty
to develop the veteran’s claim, citing Hodge).

21a
assist the veteran. The former is necessary to
initiate the latter.
IV
For the reasons set forth above, we hold that the
Veterans Court formulated an incorrect legal test for
determining if Mr. Sellers is entitled to an earlier
effective date for his MDD condition. Under the
correct test, a veteran’s formal claim is required to
identify the sickness, disease, or injuries for which
compensation is sought, at least at a high level of
generality. This is the same test as we have applied
in evaluating the sufficiency of informal claims. See,
e.g., Shea, 926 F .3d at 1362; Roberson, 251 F .3d at
1384. It is undisputed as a matter of fact that Mr.
Sellers fails this test. F or that reason, it is
appropriate for this court to hold that Mr. Sellers is
not entitled to an earlier effective date based on his
1996 formal claim. See Robinson v. O ’Rourke, 891
F.3d 976, 979 (Fed. Cir. 2018) (“[W]here adoption of
a particular legal standard dictates the outcome of a
case based on undisputed facts, we may address that
issue as a question of law.”) (quoting Kelly v.
Nicholson, 463 F.3d 1349, 1352-53 (Fed. Cir. 2006));
Reeves v. Shinseki, 682 F .3d 988, 992 (F ed. Cir.
2012); Comer v. Peake, 552 F .3d 1362, 1366 (F ed.
Cir. 2009); Groves v. Peake, 524 F .3d 1306, 1309-10
(F ed. Cir. 2008) (reversing the Veterans Court and
remanding for entry of judgment where application
of correct law dictates outcome of a veteran’s claim).

22a
CONCLUSION
Because Mr. Sellers cannot prevail in his request
for an earlier effective date for his MDD condition
based on his 1996 formal application, we reverse the
decision of the Veterans Court in this case, and
remand to the Veterans Court for entry of judgment
against Mr. Sellers.
REVERSED AND REMANDED
COSTS
The parties shall bear their own costs.

23a
APPENDIX B
UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
No. 16-2993
ROBERT M. SELLERS, APPELLANT,
V.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS, APPELLEE.
On Appeal from the Board of Veterans’ Appeals
(Argued May 1, 2018

Decided August 23, 2018)

Kenneth M. Carpenter of Topeka, Kansas, with
whom John F. Cameron, of Montgomery, Alabama,
was on the brief for the appellant.
Nathan Paul Kirschner and Carolyn F.
Washington, Deputy Chief Counsel, with whom
James M. Bryne, General Counsel, and Mary Ann
Flynn, Chief Counsel, all of Washington, D.C., were
on the brief for the appellee.
Before DAVIS, Chief Judge, and SCHOELEN
and ALLEN, Judges.
ALLEN, Judge: U.S. Navy veteran Robert M.
Sellers suffers from depression. He appeals through
counsel an April 29, 2016, Board of Veterans’
Appeals (Board) decision denying an effective date
earlier than September 18, 2009, for his service-

24a
connected major depressive disorder (MDD) and a
higher initial disability rating for MDD. 1 This
matter was referred to a panel of the Court, with
oral argument, to determine whether a claimant’s
general statement of intent to seek benefits,
combined with in-service medical diagnoses
documented in service treatment records, is
sufficient to constitute a valid claim for benefits.
We hold that a general statement of intent to
seek benefits, coupled with a reasonably identifiable
in-service medical diagnosis reflected in service
treatment records in VA’s possession prior to the RO
making a decision on the claim may be sufficient to
constitute a claim for benefits. Whether service
treatment records reasonably identify a claimed
disability is a fact-specific inquiry. That inquiry was
not made here. Accordingly, we set aside the Board’s
decision and remand this matter for further
proceedings.

The Board remanded the issues of increased ratings for
spondylolisthesis of the lumbosacral spine, right index and
middle finger injuries, and a left knee disability, and service
connection for a bilateral ankle disability. Accordingly, these
issues are not before the Court. See Breeden v. Principi, 17
Vet.App. 475, 478 (2004) (per curiam order). The Board also
granted service connection for PTSD and a total disability
rating based on individual unemployability. These are
favorable factual findings the Court may not disturb. See
Medrano v. Nicholson, 21 Vet.App. 165, 170 (2007). Finally, the
Board also denied an earlier effective date for the appellant’s
40% lumbosacral disability rating. As the appellant presents no
argument as to this issue, the Court deems it abandoned. See
Pederson v. McDonald, 27 Vet.App. 276, 285 (2015) (en banc).
1

25a
I.

FACTS AND PROCEDURAL HISTORY

The appellant served honorably on active duty in
the U.S. Navy from April 1964 to F ebruary 1969,
and in the U.S. Army from January 1981 to
February 1996. In November 1993, he was examined
by a military psychiatrist to determine fitness for
duty. Noting that the appellant had symptoms of
depression and “prominent” insomnia for the past 2
to 3 years, Record (R.) at 2930, the psychologist
diagnosed dysthymia and concluded that the
appellant’s psychiatric symptoms were not “severe
enough to make him unfit for duty.” Id.
In April 1995, the appellant’s commanding
officer recommended that he undergo an involuntary
acute emergency mental health evaluation because
he threatened to commit suicide and had engaged in
other “irrational” behavior. The commanding officer
described him as “angry” and a possible threat to
himself. R. at 2943. Later that month, the appellant
underwent extensive psychological testing. The
examiner diagnosed a personality disorder and
recommended further examination to rule out
dysthymia. R. at 2923. On May 1, 1995, the
appellant was admitted to a psychiatric center where
he was diagnosed with dysthymia and a personality
disorder with obsessive-compulsive traits. R. at
2924.
In March 1996, the appellant filed a formal claim
for VA disability benefits, listing various physical
injuries as disabilities. He also stated that he had
already received in-service treatment for several of
those physical injuries. In a section entitled

26a
“Remarks,” the appellant wrote: “Request [service
connection] for disabilities occurring during active
duty service.” R. at 2687. This statement plays a
major role in this appeal. VA adjudicated the
appellant’s physical disability claims but did not
adjudicate any mental health claims at that time.
In September 2009, the appellant filed an
informal claim for service connection for PTSD,
which the VA regional office (RO) denied in a
March 2011 decision. In May 2011, a VA
compensation and pension (C&P) examiner
diagnosed the appellant with MDD and PTSD. A VA
psychiatrist opined in July 2011 that the appellant’s
MDD began in service. In a September 2011
decision, the RO then granted service connection for
MDD at a 70% rating, effective May 13, 2011. In
October 2011, the appellant timely disagreed with
both the March and September 2011 decisions and
ultimately perfected appeals to the Board. A decision
review officer then awarded an earlier effective date
for the appellant’s MDD, September 3, 2010.
On April 29, 2016, the Board issued a decision
awarding the appellant an effective date of
September 18, 2009 for MDD and a higher initial
rating for MDD. Regarding its assignment of
September 18, 2009, as the effective date for MDD,
the Board stated:
[A]n effective date of September 18, 2009,
and no earlier, is warranted for the grant of
service connection for the Veteran’s
psychiatric disability (major depressive
disorder or MDD). The record shows that VA

27a
received on September 18, 2009, an informal
claim for service connection for psychiatric
disability, claimed as PTSD. It is noted that,
when a claimant makes a claim, he is
seeking service connection for symptoms
regardless of how those symptoms are
diagnosed or labeled.
However, there is no legal basis for the
assignment of an effective date earlier than
September 18, 2009 for the award for service
connection for MDD because the effective
date of the award is the date of receipt of the
claim or the date entitlement arose,
whichever is later. In this case, the later date
is September 18, 2009.
The Board observes that VA received no
claim (informal or otherwise) for service
connection for any psychiatric disability prior
to September 19, 2009. Notably, prior to this
date,
VA
had
not
received
any
correspondence from the Veteran or a
representative since 1996. Also, although the
Veteran had filed an original VA
compensation claim in April 1971 2 and a
claim for benefits in March 1996, these did
not include any claim for psychiatric disorder
or problems that could be reasonably
construed as a claim for service connection
for psychiatric disability.

In June 1971, the appellant was granted service
connection for bilateral hearing loss.
2

28a
R. at 20 (citations omitted). This appeal followed.
II.

ANALYSIS

Generally, the effective date of a claim for
benefits is the date VA received the claim or the date
on which entitlement arose, whichever is later. See
38 U.S.C. § 5110(a). The elements of any claim,
formal or informal, 3 are “(1) an intent to apply for
benefits, (2) an identification of the benefits sought,
and (3) a communication in writing[.]” Brokowski v.
Shinseki, 23 Vet.App. 79, 84 (2009); see also
MacPhee v. Nicholson, 459 F.3d 1323, 1325 (Fed. Cir.
2006); Criswell v. Nicholson, 20 Vet.App. 501, 504
(2006); Brannon v. West, 12 Vet.App. 32, 35 (1998). A
veteran’s identification of the benefits sought does
“not require any technical precision” and VA “must
fully and sympathetically develop a veteran’s claim
to its optimum before reaching the claim on its
merits.” Brokowski, 23 Vet.App. at 85; see also
Ingram v. Nicholson, 21 Vet.App. 232, 256-57 (2007).
In Brokowski, the Court held that VA “is not
required to anticipate a claim for benefits for
disabilities that have not been identified in the record
by medical professions or by competent lay evidence
at the time a claimant files a claim or during the
claim’s development.” 23 Vet.App. at 88 (emphasis
added). But “the Board is not required to conjure up
As of September 25, 2015, VA no longer recognizes
informal claims. See 79 F ed. Reg. 57,660-01 (2015). In their
place, VA recognizes “an intent to file a claim,” which may be
submitted electronically, on a prescribed intent-to-file-a-claim
form, or through an oral communication to certain VA
employees that is later recorded in writing. 38 C.F.R.
§§ 3.155(b)(1)(i)-(iii) (2018).
3

29a
issues that were not raised by the appellant.”
Brannon, 12 Vet.App. at 35; see also Criswell, 20
Vet.App. at 503-04 (same).
A.

March 1996 Claim for Benefits for a
Psychiatric Disability

The appellant argues his general statement of an
intent to seek “[service connection] for disabilities
occurring during active duty service,” combined with
VA’s actual possession of his service treatment
records, is sufficient to constitute a valid claim for a
psychiatric disability. The Secretary argues in
response that the Board properly determined the
appellant had not submitted a claim in March 1996
for a psychiatric disability because general
statements do not sufficiently “identify the benefit
sought” as required under Brokowski, 23 Vet.App. at
89. 4
The Secretary is correct that a general statement
of intent to seek benefits for unspecified disabilities
standing alone is insufficient to constitute a claim.
Yet, the Secretary’s argument misses a crucial
additional factor present here: evidence of
reasonably identifiable in-service diagnoses of
psychiatric conditions that predate the appellant’s
claim were in the possession of the RO before it
rendered its rating decision. The disability at issue
here was identified in the record by military medical
There is no dispute that the appellant’s statement was
in writing and clearly expressed an intent to apply for some
benefit. The only dispute is whether this written intent
sufficiently identified the benefits he asserts now that he
sought in 1996.
4

30a
professionals well before the appellant filed his
March 1996 claim, R. at 777, 2922-43, and the record
was in VA’s possession at the time of the initial
decision, R. at 2667 (July 1996 rating decision listing
“[s]ervice medical records for the period [April 17,
1964,] through [January 22, 1969,] and the period
[February 20, 1981,] through [February 26, 1996,] as
“Evidence”). F urther, the appellant’s mental health
issues were well documented in those records. They
reflect that the appellant’s mental health was a
subject of serious concern while he was in the
military as he was twice diagnosed with dysthymia,
subjected to extensive psychological testing,
evaluated for retention purposes, and involuntarily
hospitalized. It is undisputed on appeal to the Court
that the appellant was diagnosed in service with a
psychiatric condition. But what is not clear is
whether that diagnosis was reasonably identifiable
by VA adjudicators at the time of his putative formal
claim in March 1996 or prior to the RO’s deciding the
claim. As we explain below, whether an in-service
diagnosis in a veteran’s service records is reasonably
identifiable by VA adjudicators at the time a
claimant seeks benefits or prior to the RO’s deciding
the claim is a factual determination for the Board.
As a general principle, VA may not ignore inservice diagnoses of specific disabilities, even those
coupled with a general statement of intent to seek
benefits, provided those diagnoses are reasonably
identifiable from a review of the record. 5 But, we are
Like the Brokowski Court, we do not reach the question
whether a general statement of intent to seek benefits,
standing alone, is sufficient to trigger the Secretary’s statutory
5

31a
cognizant of the difficulties that VA adjudicators
would face when confronted with a general
statement of intent to apply for benefits for
conditions experienced in service. Service medical
records reflecting such conditions could be
voluminous and, even if they are not, the records
could reflect numerous conditions. The fact finder
must determine, based on the totality of the service
medical
record,
both
qualitatively
and
quantitatively, whether the condition at issue would
be sufficiently apparent to an adjudicator.
To assist the Board in this endeavor, we provide
the following thoughts on the types of factors that
may be relevant to the Board’s inquiry. These are
not the only factors the Board may find helpful as it
makes its assessment on this factual question. They
are merely illustrations of factors that may be
relevant to the Board’s assessment. Qualitatively,
for example, service medical records might contain
many notes of conditions ranging from descriptions
of trivial conditions (a hangnail) to full-blown
diagnoses of significant illnesses (PTSD). And the
record might describe certain conditions in great
detail or, in contrast, in only a passing manner. Or,
for example, medical records could contain vague
complaints of symptoms regarding a condition but no
formal diagnosis.
obligation to notify claimants of the incomplete nature of an
application, because the appellant did not argue this theory.
See 38 U.S.C. § 5102(b) (“If a claimant’s application for a
benefit … is incomplete, the Secretary shall notify the claimant
and the claimant’s representative, if any, of the information
necessary to complete the application.”).

32a
Quantitatively, the sheer volume of medical
records may potentially be a factor in determining
whether a condition would have been reasonably
identifiable to a VA adjudicator. F or example, the
Board could decide that a single diagnosis reflected
in a single page of a 2,000-page service record is not
reasonably identifiable. Whether this is the case
here is a factual question that the Board must
address in the first instance, and the Board must
provide support its determination with adequate
reasons and bases. See Washington v. Nicholson, 19
Vet.App. 362, 367-68 (2005) (explaining that it is the
Board’s duty, as fact finder, to determine the
credibility and weight to be given to the evidence).
Because the Board did not assess whether the
medical record is such that the disability in question
was reasonably identifiable, it did not appropriately
consider this issue and, thus, remand is warranted.
On remand the Board must determine whether the
appellant’s in-service records reflect a reasonably
identifiable diagnosis of a psychiatric condition given
the nature of the records at issue and, if necessary,
reconsider its determination concerning the proper
effective date of the appellant’s MDD accordingly.
See Tucker v. West, 11 Vet.App. 369, 374 (1998)
(remand is warranted “where the Board has
incorrectly applied the law, failed to provide an
adequate statement of reasons or bases for its
determinations, or where the record is otherwise
inadequate”).
In sum, we recognize the Court’s warning in
Brokowski that general statements of intent “cannot
be used as a pleading device to require the Secretary

33a
to conduct an unguided safari through the record to
identify all conditions for which the veteran may
possibly be able to assert entitlement to a claim for
disability compensation,” 23 Vet.App. at 89, and we
emphasize that our holding here is a narrow one.
Only records containing diagnoses that are
reasonably identifiable from a review of the record
may otherwise cure an insufficient general
statement of intent to seek benefits. To continue
Brokowski’s metaphor, we caution that VA at most
must participate in a fully guided safari.
B.

Higher Initial MDD Rating

The appellant also appeals the Board’s denial of
a higher initial rating for MDD, raising arguments
concerning the Board’s discounting of a March 2016
vocational expert opinion and its consideration of 38
C.F .R. § 4.130, Diagnostic Code (DC) 9434.
Addressing these arguments would be premature,
however, and they are better left to the Board in the
first instance. The weight to be accorded to the
expert opinions of record might change depending on
the DC at issue, and the relevant DC depends on
what effective date the Board assigns. The DC in
effect at the time of the appellant’s March 1996
claim required that a claimant show at least one of
three different factors for a 100% rating. See 38
C.F .R. § 4.132, DC 9411 (1996). This Court held in
Johnson v. Brown that each of those factors provided
an independent basis for the award of a 100% rating.
7 Vet.App. 95, 97 (1994). Additionally, the Court
upheld the Secretary’s interpretation of DC 9411 to
mean that a claimant who was assigned a 70%
rating for a psychiatric disability and who was

34a
unable to work would be entitled to a 100% rating.
Id. Here, the vocational expert opined that the
appellant’s “psychological disability alone precludes
all competitive employment in the national
economy,” R. at 89, and that the accommodations his
psychological
disability
requires
“preclude
competitive work of any kind,” R. at 90. These
findings appear to fall under at least one of DC
9411’s factors as they existed in March 1996. See 38
C.F.R. § 4.132, DC 9411 (providing for a 100% rating
where a claimant shows he or she “was
demonstrably
unable
to
obtain
or
retain
employment”). Alternatively, the appellant might be
entitled to a 70% rating under the March 1996
version of DC 9411 but be elevated to a 100% rating
under Johnson. Either way, these determinations
are best left to the Board in the first instance. See
Washington, 19 Vet.App. at 367-68.
F inally, we caution the Board that it cannot
reject a vocational expert’s opinion merely because it
is not a medical opinion. Vocational experts can be
necessary depending on the facts of a particular
case. See Smith v. Shinseki, 647 F .3d 1380, 1386
(Fed. Cir. 2011). While the Board is entitled to
discount or reject the medical conclusions of a
vocational examiner, it cannot discount the
vocational conclusions of a vocational examiner
simply because he or she is not a medical
professional. No law, regulation, or precedent
requires that an examination be conducted by an
examiner with a particular expertise or specialty.
Instead, an examination must be performed by
someone with the “education, training, or

35a
experience” necessary to provide an opinion. 38
C.F.R. § 3.159(a)(1).
Thus, because the legal standard the Board may
use to analyze the probative value of the vocational
opinion may change, the Court holds that the
appellant’s arguments concerning the March 2016
vocational expert opinion and the correct DC to
apply are inextricably intertwined with the issue of
an earlier effective date, and the Court and will not
address them further. See Harris v. Derwinski, 1
Vet.App. 180 (1991).
In pursuing his case on remand, the appellant is
free to submit additional evidence and argument,
including the arguments raised in his briefs to this
Court, in accordance with Kutscherousky v. West, 12
Vet.App. 369, 372-73 (1999) (per curiam order), and
the Board must consider any such evidence or
argument submitted, Kay v. Principi, 16 Vet.App.
529, 534 (2002). The Court reminds the Board that
“[a] remand is meant to entail a critical examination
of the justification for the decision,” Fletcher v.
Derwinski, 1 Vet.App. 394, 397 (1991), and the
Board must proceed expeditiously, in keeping with
38 U.S.C. §§ 5109B and 7112.
C.

Tinnitus Claim

The appellant also argues the Board erred by
failing to refer a purportedly pending claim for
service connection for tinnitus to an RO for
adjudication. He asserts that a May 1996 C&P
examiner’s note that the appellant reported tinnitus
“explicitly raised” a claim for service connection for

36a
that condition. The Secretary argues the Board did
not err because no evidence of record reasonably
raised such a claim. As the appellant’s counsel
conceded at oral argument, Oral Argument at 30:0531:20, Sellers v. O ’Rourke, U.S. Vet. App. No. 162993, (oral argument held May 1, 2018),
http://www.uscourts.cavc.gov/oral_arguments_audio.
php, this Court lacks jurisdiction to decide this issue
because there is no final Board decision on the
matter and thus the Court will not consider this
issue further. See 38 U.S.C. §§ 7252(a), 7266(a);
Jarrell v. Nicholson, 20 Vet.App. 326, 331 (2006) (en
banc) (holding that the Court may exercise its
jurisdiction only over claims that are the subject of a
final Board decision).
Where a claim is “in an unadjudicated state due
to the failure of the Secretary to process” it, the
claimant’s remedy is “to pursue a resolution of the
original claim, e.g., to seek issuance of a final RO
decision with proper notification or appellate rights
and initiate [a Notice of Disagreement].” DiCarlo v.
Nicholson, 20 Vet.App. 52, 56 (2006). “If the
Secretary fails to process the claim, then the
claimant can file a petition with this Court
challenging the Secretary’s refusal to act.” Id. at 57
(citing Costanza v. West, 12 Vet.App. 133, 134
(1999)).
D.

Other Issues Raised at Oral Argument

At oral argument, the appellant’s counsel
advanced an argument that was not presented in the
briefing. In the briefs, the appellant seemed to argue
that his March 1996 claim included an informal

37a
claim for MDD. See, e.g., Appellant’s Reply Brief at
2-4. But at oral argument, counsel made very clear
that he was raising an alternative argument for the
first time, Oral Argument at 4:30-4:53, 26:45-27:22,
43:46-43:55, even stating that the arguments made
in the briefs concerning informal claims were
incorrect, Oral Argument at 38:57-39:20, 41:0041:16.
The Court generally will not entertain
arguments raised by counsel at oral argument for
the first time. See, e.g., McFarlin v. Conseco Servs.,
L.L.C., 381 F .3d 1251, 1263 (11th Cir. 2004) (“A
party is not allowed to raise at oral argument a new
issue for review.”); Pieczenik v. Dyax Corp., 265 F.3d
1329, 1332-33 (F ed. Cir. 2001) (finding that “[i]t is
well settled that an appellant is not permitted to
make new arguments that it did not make in its
opening brief” and not addressing arguments
presented for the first time at oral argument);
Tarpley v. Greene, 684 F.3d 1, 7 n.17 (D.C. Cir. 1982)
(“Clearly, oral argument on appeal is not the proper
time to advance new arguments or legal theories.”).
Moreover, “[t]his Court and the U.S. Court of
Appeals for the F ederal Circuit have repeatedly
discouraged parties from raising arguments that
were not presented in an initial brief to the Court.”
Norvell v. Peake, 22 Vet.App. 194, 201 (2008); see
also Carbino v. West, 168 F.3d 32, 34 (Fed. Cir. 1999)
(“Improper or late presentation of an issue or
argument … ordinarily should not be considered.”),
aff’d sub nom. Carbino v. Gober, 10 Vet.App. 507,
511 (1997); Fugere v. Derwinski, 1 Vet.App. 103, 105
(“Advancing different arguments at successive

38a
stages of the appellate process does not serve the
interests of the parties or the Court. Such a practice
hinders the decision-making process and raises the
undesirable specter of piecemeal litigation.”). “[T]he
practice of presenting new issues and arguments
during oral argument is even more objectionable.”
Norvell, 22 Vet.App. at 202. Though the Court is
aware that the appellant’s counsel who presented
oral argument was not the same counsel who wrote
the briefs, counsel could have alerted the Court and
the Secretary’s counsel to the new argument. We
strongly urge counsel to avoid this approach to oral
argument in the future. To be clear, the Court will
not consider the arguments the appellant’s counsel
advanced for the first time at oral argument in his
matter.
III.

CONCLUSION

After consideration of the parties’ briefs, oral
arguments, the record on appeal, and the governing
law, the Board’s April 29, 2016, decision denying an
effective date earlier than September 18, 2009, for
the award of service connection for MDD is SET
ASIDE and the matter REMANDED for further
proceedings consistent with this decision.

39a
APPENDIX C
BOARD OF VETERANS’ APPEALS
DEPARTMENT OF VETERANS AFFAIRS
WASHINGTON, DC 20420
IN THE APPEAL OF
ROBERT M. SELLERS
DOCKET NO. 14-10 845A ) DATE
)
)

C 25 353 577

APR 29 2016

On appeal from the
Department of Veterans Affairs Regional Office in
Montgomery, Alabama
THE ISSUES
1.
Entitlement to an evaluation in excess of 40
percent for spondylolisthesis of the lumbosacral
spine.
2.
Entitlement to a compensable evaluation for
laceration and tendon injury of the index and middle
fingers, right (major) hand.
3.
Entitlement to an evaluation in excess of 10
percent for left knee disability.
4.
Entitlement to an initial evaluation in excess
of 70 percent for major depressive disorder (MDD).
5.
Entitlement to service connection for post
traumatic stress disorder (PTSD).

40a
6.
Entitlement to service connection for bilateral
ankle disability, to include vascular insufficiency of
the lower extremities.
7.
Entitlement to a total evaluation based on
individual unemployability due to service connected
disability (TDIU).
8.
Entitlement to an effective date earlier than
September 18 2009 for the award of a 40 percent
evaluation for lumbosacral spine disability.
9.
Entitlement to an effective date earlier than
September 3, 2010 for the grant of service connection
for major depressive disorder (MDD).
REPRESENTATION
Appellant
Attorney

represented

by:

John F .

Cameron,

ATTORNEY FOR THE BOARD
C.A. Skow, Counsel
INTRODUCTION
The Veteran served on active duty from April 1964
to February 1968 in the US Navy, and from January
1981 to February 1996 in the US Army.
This case came before the Board of Veterans’
Appeals (the Board) on appeal from F ebruary 2011,
August 2011, and March 2014 rating decisions of the

41a
Department of Veterans Affairs (VA) Regional
Offices (RO) in Montgomery, Alabama.
The Board notes that the Veteran’s attorney
submitted additional argument and evidence
following the most recent Statements of the Case
(SOC) in these matters without a waiver of
consideration by the Agency of Original Jurisdiction
(AOJ). These records are duplicative in substance or
not relevant to the matters herein adjudicated by the
Board, and therefore referral to the AOJ is not
required. Additionally, to the extent that VA
received additional evidence following the most
recent SOC in regards to the earlier effective date
claim for lumbosacral spine disability, the Board
observes that the substantive appeal to the Board on
that issue from the Veteran’s attorney was received
after F ebruary 2, 2013 from the Veteran’s attorney
and, as such, a waiver of consideration by the
originating agency in the first instance is presumed
to be given. See Third Party Correspondence (April
25, 2014).
The Board further notes that the adjudication of the
claims here has been delayed by request of the
Veteran’s attorney for the submission of additional
evidence, to include a 3 month extension requested
in December 2015. See Third Party Correspondence
(F ebruary 3, 2016). VA received additional evidence
in March 2016 to include web-based occupational
information, a private vocational assessment, and
Veteran’s
statement.
See
Third
Party
Correspondence (March 21, 2016).

42a
The Veteran’s claims have been reviewed using the
Veterans Benefits Management System (VBMS),
VA’s electronic system for document record keeping,
and relevant documents contained therein are part
of the Veteran’s electronic claims file.
The following issues are addressed in the REMAND
portion of the decision below and are REMANDED to
the AOJ: (1) Entitlement to an evaluation in excess
of 40 percent for spondylolisthesis of the lumbosacral
spine; (2) Entitlement to a compensable evaluation
for laceration and tendon injury of the index and
middle fingers, right (major) hand; (3) Entitlement
to an evaluation in excess of 10 percent for left knee
disability; and (4) Entitlement to service connection
for bilateral ankle disability, to include vascular
insufficiency of the lower extremities.
FINDINGS OF FACT
1.

PTSD is attributable to service.

2.
Total occupational and social impairment due
to symptoms of major depressive disorder is not
shown at any time during this appeal.
3.
A formal claim for increase for low back
disability was received by VA on September 18,
2009; the RO granted the claim for increase and
assigned a 40 percent rating, effective September 18,
2009; VA received no claim (informal or otherwise)
for increase in the year prior thereto, and it is not
factually ascertainable in the year prior thereto that
an increased evaluation was warranted.

43a
4.
VA received on September 18, 2009, an
informal claim for service connection for psychiatric
disability, claimed as PTSD; VA received no claim
(informal or otherwise) for service connection for any
psychiatric disability prior to this date.
5.
The Veteran is unable to engage in
substantially gainful employment due to the mental
and physical limitations imposed by serviceconnected disability.
CONCLUSIONS OF LAW
1.
The criteria for service connection for PTSD
are met. 38 U.S.C.A. §§1110, 1131, 1154(a), 5107
(West 2014); 38 C.F.R. § 3.304(f) (2015).
2.
The criteria for an initial evaluation in excess
of 70 percent for major depressive disorder are not
met. 38 U.S.C.A. §§ 5107, 1155 (West 2014); 38
C.F.R. §§ 4.7, 4.130, Diagnostic Code 9434 (2015).
3.
The criteria for an effective date of earlier
than September 18, 2009 for the assignment of a 40
percent disability evaluation for lumbosacral spine
disability are not met. 38 U.S.C.A. §§ 5107, 5110
(West 2014); 38 C.F.R. § 3.400 (2015).
4.
The criteria for an effective date of September
18, 2009, and no earlier, for the award of service
connection for MDD are met. 38 U.S.C.A. §§ 5107,
5110 (West 2014); 38 C.F.R. § 3.400 (2015).

44a
5.
The criteria for schedular TDIU are met. 38
U.S.C.A. §§ 1155, 5107(b) (West 2014); 38 C.F .R.
§§ 3.340, 3.341, 4.15, 4.16 (2015).
REASONS AND BASES FOR FINDINGS AND
CONCLUSIONS
I.

PTSD

Entitlement to service connection for PTSD requires:
(1) medical evidence diagnosing the condition in
accordance with 38 C.F .R. § 4.125(a); (2) a link,
established by medical evidence, between current
symptoms and an in-service stressor; and (3) credible
supporting evidence that the claimed in-service
stressor occurred. 38 C.F.R. § 3.304(f) (2015).
Service connection for PTSD is granted. The Board
finds that the record establishes a confirmed
diagnosis of PTSD related to military experiences.
Report of VA examination dated in July 2011 notes
that the Veteran began to have depression following
deaths of those he knew in service in the 1960s. The
examiner found that the Veteran was traumatized
by survivor’s guilt. The Board finds that the
Veteran’s report of trauma from deaths while in
service are consistent with the length of his service
and circumstances of his service during a period of
war. 38 U.S.C.A. § 1154(a) (2015).
II.

Veterans Claims Assistance Act of 2000

The Veterans Claims Assistance Act (VCAA),
codified in pertinent part at 38 U.S.C.A. §§ 5103,
5103A (West 2014), and the pertinent implementing

45a
regulation, codified at 38 C.F .R. § 3.159 (2015),
provide that VA will assist a claimant in obtaining
evidence necessary to substantiate a claim but is not
required to provide assistance to a claimant if there
is no reasonable possibility that such assistance
would aid in substantiating the claim. They also
require VA to notify the claimant and the claimant’s
representative, if any, of any information, and any
medical or lay evidence, not previously provided to
the Secretary that is necessary to substantiate the
claim.
As part of the notice, VA is to specifically inform the
claimant and the claimant’s representative, if any, of
which portion, if any, of the evidence is to be
provided by the claimant and which part, if any, VA
will attempt to obtain on behalf of the claimant.
Although the regulation previously required VA to
request that the claimant provide any evidence in
the claimant’s possession that pertains to the claim,
the regulation has been amended to eliminate that
requirement for claims pending before VA on or after
May 30, 2008.
The Board also notes the United States Court of
Appeals for Veterans Claims (Court) has held the
plain language of 38 U.S.C.A. § 5103(a) requires
notice to a claimant pursuant to the VCAA be
provided “at the time” or “immediately after” VA
receives a complete or substantially complete
application for VA-administered benefits. Pelegrini
v. Principi, 18 Vet. App. 112, 119 (2004).
The timing requirement articulated in Pelegrini
applies equally to the initial­disability-rating and

46a
effective-date elements of a service-connection claim.
Dingess/Hartman v. Nicholson, 19 Vet. App. 473
(2006).
VA met its duty to notify. VA sent to the Veteran all
required notice in October 2009, April 2010, and
October 2010 letters, prior to the ratings decision on
appeal. Notably, the claim for increase for MDD
arises from the Veteran’s disagreement with the
initial rating assigned following the grant of service
connection. See Rating Decision (August 2011);
Notice of Disagreement (October 2011). In cases
where service connection has been granted and an
initial rating and effective date have been assigned,
the typical service connection claim has been more
than substantiated, it has been proven. As a result,
no additional 38 U.S.C.A. § 5103(a) notice is required
because the purpose that the notice is intended to
serve has been fulfilled. Hartman v. Nicholson, 483
F .3d 1311 (F ed. Cir. 2007); Dunlap v. Nicholson, 21
Vet. App. 112 (2007).
VA also met its duty to assist. VA obtained all
relevant medical treatment records identified by the
Veteran. These records have been associated with
the claims file. VA further afforded the Veteran
appropriate VA medical examinations. Neither the
Veteran nor his attorney has identified any
outstanding evidence that could be obtained to
substantiate the Veteran’s claim for increase herein
addressed; the Board is also unaware of any such
evidence.
The evidence currently of record is sufficient to
substantiate entitlement to the benefits sought in

47a
regards to the claims for service connection for
PTSD, an earlier effective date for the grant of
service connection for MDD, and TDIU. As such, no
further development is required under 38 U.S.C.A.
§§ 5103, 5103A (West 2014) or 38 C.F .R. § 3.159
(2015).
III.

Initial Evaluation of MDD

The Veteran seeks an initial evaluation in excess of
70 percent for MOD. It is noted that, in an August
2011 rating decision, the RO granted service
connection for MDD at the 70 percent disability level
under Diagnostic Code 9434, effective from May 13,
2011. See Rating Decision (August 2011). In a March
2014 rating decision, the RO granted an earlier
effective for the grant of service connection from
September 3, 2010. See Rating Decision (March
2014). The Veteran through his attorney appeals the
both the disability rating and effective date assigned
for MDD. See VA Form 9 (April 2014) and VA Form
9 (October 2015).
Except as otherwise provided by law, a claimant has
the responsibility to present and support a claim for
benefits under laws administered by the Secretary.
The Secretary shall consider all information and lay
and medical evidence of record in a case before the
Secretary with respect to benefits under laws
administered by the Secretary. When there is an
approximate balance of positive and negative
evidence regarding any issue material to the
determination of a matter, the Secretary shall give
the benefit of the doubt to the claimant. 38 U.S.C.A.
§ 5107 (West 2014); 38 C.F.R. § 3.102 (2015); see also

48a
Gilbert v. Derwinski, 1 Vet. App. 49, 53 (1990). To
deny a claim on its merits, the evidence must
preponderate against the claim. Alemany v. Brown, 9
Vet. App. 518, 519 (1996), citing Gilbert, 1 Vet. App.
at 54.
Although the Board has granted the claim for PTSD,
it is noted that there is no prejudice to the Veteran
from the Board’s consideration of the MDD claim for
the following reasons: (1) the general rating formula
for mental disorders governs the rating of both
PTSD under Diagnostic Code9411 and MDD under
Diagnostic Code 9434; (2) the July 2011 VA
examination report shows that the Veterans MDD
and PTSD symptoms significantly overlap and may
not be parsed from each other; (3) the Board has
considered all the Veteran’s psychiatric symptoms
regardless of the diagnosis attached in evaluating
his entitlement to an initial evaluation in excess of
70 percent for MDD—there are no manifestations of
psychiatric disability left uncompensated; and (4) a
veteran may not be compensated twice for the same
symptomatology as this would result in pyramiding,
contrary to the provisions of 38 C.F.R. § 4.14.
Legal Criteria
Disability evaluations are determined by the
application of the VA Schedule for Rating
Disabilities (Rating Schedule). 38 C.F.R. Part 4. The
percentage ratings contained in the Rating Schedule
represent, as far as can be practicably determined,
the average impairment in earning capacity
resulting from diseases and injuries incurred or
aggravated during military service and their

49a
residual conditions in civil occupations. 38 U.S.C.A.
§ 1155; 38 C.F .R. § 4.1. If two evaluations are
potentially applicable, the higher evaluation will be
assigned if the disability picture more nearly
approximates the criteria required for that
evaluation; otherwise, the lower rating will be
assigned. 38 C.F.R. § 4.7.
In general, all disabilities, including those arising
from a single disease entity, are rated separately,
and all disability ratings are then combined in
accordance with 38 C.F .R. § 4.25. However, the
evaluation of the same “disability” or the same
“manifestations” under various diagnoses is
prohibited. 38 C.F.R. § 4.14.
A disability may require re-evaluation in accordance
with changes in a veteran’s condition. It is thus
essential, in determining the level of current
impairment, that the disability be considered in the
context of the entire recorded history. 38 C.F .R.
§ 4.1.
MDD is evaluated pursuant to 38 C.F .R. § 4.130,
Diagnostic Code 9434, which provides for a 70
percent rating is warranted for occupational and
social impairment, with deficiencies in most areas,
such as work, school, family relations, judgment,
thinking, or mood, due to such symptoms as: suicidal
ideation; obsessional rituals which interfere with
routine activities; speech intermittently illogical,
obscure, or irrelevant; near-continuous panic or
depression affecting the ability to function
independently,
appropriately
and
effectively;
impaired impulse control (such as unprovoked

50a
irritability with periods of violence); spatial
disorientation; neglect of personal appearance and
hygiene; difficulty in adapting to stressful
circumstances (including work or a worklike setting);
inability to establish and maintain effective
relationships. 38 C.F .R. § 4.130, Diagnostic Code
9434.
A 100 percent evaluation is indicated where there is
total occupational and social impairment, due to
such symptoms as: gross impairment in thought
processes or communication; persistent delusions or
hallucinations; grossly inappropriate behavior;
persistent danger of hurting self of others;
intermittent inability to perform activities of daily
living (including maintenance of minimal personal
hygiene); disorientation to time or place; memory
loss for names of close relatives, own occupation, or
own name. 38 C.F.R. § 4.130, Diagnostic Code 9434.
When evaluating a mental disorder, the rating
agency shall consider the frequency, severity, and
duration of psychiatric symptoms, the length of
remissions, and the veteran’s capacity for
adjustment during periods of remission. An
evaluation is based on all the evidence of record that
bears on occupational and social impairment, rather
than solely on the examiner’s assessment of the level
of disability at the moment of the examination.
When evaluating the level of disability from a
mental disorder, the rating agency will consider the
extent of social impairment, but shall not assign an
evaluation solely on the basis of social impairment.
38 C.F.R. § 4.126. The rating formula is not intended
to constitute an exhaustive list, but rather is

51a
intended to provide examples of the type and degree
of the symptoms, or their effects, that would justify a
particular rating. Mauerhan v. Principi, 16 Vet. App.
436 (2002). Accordingly, the evidence considered in
determining the level of impairment under § 4.130 is
not restricted to the symptoms provided in the
Diagnostic Code. Instead, VA must consider all
symptoms of a Veteran’s condition that affect the
level of occupational and social impairment, and
assign an evaluation based on the overall disability
picture presented. However, the impairment does
need to cause such impairment in most of the areas
referenced at any given disability level. VazquezClaudio v. Shinseki, 713 F. 3d. 112 (Fed. Cir. 2013).
The Board is required to analyze the credibility and
probative value of the evidence, account for any
evidence that it finds persuasive or unpersuasive,
and provide the reasons for its rejection of any
material evidence favorable to the claimant. See
Daye v. Nicholson, 20 Vet. App. 512, 516 (2006). It is
noted that competency of evidence differs from
weight and credibility. The former is a legal concept
determining whether testimony may be heard and
considered by the trier of fact, while the latter is a
factual determination going to the probative value of
the evidence to be made after the evidence has been
admitted. Rucker v. Brown, 10 Vet. App. 67, 74
(1997); Layno v. Brown, 6 Vet. App. 465, 469 (1994);
see also Cartright v. Derwinski, 2 Vet. App. 24, 25
(1991) (“although interest may affect the credibility
of testimony, it does not affect competency to
testify”). In determining whether statements are
credible, the Board may consider internal
consistency, facial plausibility, and consistency with

52a
other evidence submitted on behalf of the claimant.
Caluza v. Brown, 7 Vet. App. 498 (1995).
Facts and Analysis
Having carefully reviewed the evidence of record, the
Board finds that the preponderance of the evidence
is against an initial evaluation in excess of 70
percent for MDD. Neither the lay nor the medical
evidence more nearly reflect the frequency, severity
or duration of symptoms contemplated by the next
higher evaluation—that is, total occupational and
social impairment due to MDD symptoms. 38 C.F.R.
§§ 4.7, 4.130, Diagnostic Code 9434 (2015).
VA treatment records reflect that symptoms of
depression were noted in 2008. Treatment noted
dated in 2009 and 2010 reflect GAF scores from 55 to
65. A January 2009 note reflects that the Veteran
enjoys and spends time fishing and hunting, and he
reported a good relationship with his son. In October
2009, the Veteran reported marital conflict and selfemployment; mildly anxious mood was noted. A
depression screen disclosed anhedonia, depression,
sleep impairment, poor energy/fatigue, poor appetite
or overeating, and concentration trouble. In
December
2009,
the
Veteran
denied
suicidal/homicidal ideation. His spouse reported that
the Veteran’s outbursts “are a little better,” only 2
since his last visit. The Veteran reported daytime
fatigue, snoring. Objectively, mood was mildly
anxious and fatigued. Affect was congruent. He was
fully oriented with no impairment of attention,
concentration, memory, insight, or judgment. The
Veteran
denied
suicidal/homicidal
thoughts.

53a
Depression screening showed little interest or
pleasure in doing things, nearly every day, and
feeling down, depressed or hopeless nearly every
day.
A 2010 VA treatment note reflects that the Veteran
reported “feeling very depressed” and suicidal
thoughts due to severe musculoskeletal pain. He
stated “I have a plan” described as “getting in my
canoe going down the river [and] putting the gun in
my mouth and pulling the trigger.” He further
reported poor sleep, stating “I can’t sleep at night
but 2 hours a night” because has nightmares related
to his military experiences in Special F orces. VA
treatment records dated in 2011 note that the
Veteran participated in anger management therapy
and PTSD group therapy.
Report of VA examination dated in May 2011
reflects, by history, long standing depressive
disorder. The Veteran reported using antidepressant medication (Paroxetine, Mirtazapine,
and Prazosin) since May 2011 that causes him
drowsiness and dizziness. He denied group therapy.
Objectively, the Veteran was clean, neatly groomed,
and with unremarkable psychomotor activity.
Speech was moderately forceful. Attitude was
cooperative and friendly. Affect was constricted.
Mood was dysphoric (mildly angry). Attention and
orientation were intact. There was no impairment of
thought process or thought content. There were no
delusions/hallucinations. The Veteran reported an
average of 2 hours sleep a night, disrupted by
nightmares related to his going days without sleep
during Special F orces training and operations. The

54a
Veteran had no panic attacks. He had homicidal
thoughts, but indicated he would not act unless he
was terminally ill. He denied suicidal thoughts.
Impulse control was fair without episodes of
violence.
Memory was normal. The Veteran reported that he
was retired as a laborer, grass cutter. The diagnoses
were MDD, recurrent, moderate, and PTSD. A GAF
score of 49 (over past 2 years) was assigned. The
examiner stated that the Veteran does not have total
social and occupational impairment due to mental
disorder signs and symptoms. The examiner noted
that the Veteran had strong opinions about right
and wrong, and these opinions “seem to result in Vet
having some social difficulty” and difficulty getting
along with others in the workplace. The examiner
found “reduced reliability and productivity due to
mental disorder symptoms” and elaborated as
follows:
[The Veteran] may have difficulty in getting
along with a boss who is other than
supportive and kind. Vet describes himself
as getting very little sleep and this seems to
result in considerable irritability. Finally the
cognitive effects of the significant physical
pain he seems to be in right now would
significantly reduce his concentration.
Report of VA examination dated in July 2011 reflects
a comprehensive review of the Veteran’s background
and pertinent medical records. The examiner found
that the Veteran did not have total occupational and
social impairment due to mental disorder signs and

55a
symptoms. The examiner found that that the
Veteran had occupational and social impairment
with deficiencies in most areas, such as work,
judgement, thinking, family relations and mood. The
Beck Depression Inventory II was administered,
which showed symptoms of severe depression with
symptoms of moderate agitation, marked irritability,
marked
anhedonia,
moderate
indecisiveness,
moderately reduced energy level, and moderately
reduced libido. The examiner further noted that
there were symptoms of difficulties concentrating,
impaired sleep (only sleeping 1-2 hours of sleep a
day and “visions” of guys that died if goes into a deep
sleep), and difficulties coping with others. The
Veteran reported suicidal thoughts without intent (“I
have thoughts of killing myself, but I would not
carry them out.”). The Veteran denied any plan to
harm himself. He had no homicidal thoughts. The
Veteran reported that he drives with difficulty due to
physical medical problems, and that his wife usually
makes his medical appointments. Speech and mood
were described as “within normal limits.” Affect and
memory (remote, recent and immediate) were
described as normal. Attention was intact. Attitude
was cooperative. The Veteran reported that he had
poor impulse control but denied episodes of violence,
stating that “I just curse and fly off the handle.”
There was no impairment of orientation to person,
place or time. Also, there was no impairment of
thought content or process, insight, or judgement.
The
Veteran
denied
panic
attacks
or
obsessive/compulsive behavior. There was no
impairment in the Veteran’s ability to perform the

56a
activities of daily living. By history, the Veteran had
quit his lawn business in 2009.
Subsequently dated VA treatment records show
ongoing group therapy for the Veteran’s psychiatric
problems. A September 2011 note reflects that the
Veteran was tired, irritable, and had homicidal
thoughts to be executed only if he had terminal
illness. The examiner sought to have the Veteran
seen by a psychiatrist or hospitalized, but the
Veteran declined both meeting with a psychiatrist
and hospitalization, and he further questioned the
use of therapy. The examiner commented that the
Veteran demonstrated a “willingness to nurture his
anger and attitude which makes change difficulty.”
VA treatment records also show a diagnosis for
obstructive sleep apnea interfering with sleep.
The Board finds that “total occupational and social
impairment” due to MDD symptoms is not more
nearly approximated by the evidence of record.
Although the record shows that the Veteran’s
symptoms would make it difficult to adapt to a worklike setting due to disturbances of mood and
motivation, anger issues, as well as fatigue and
decreased concentration related to poor sleep and
nightmares, total occupational impairment is not
shown. Although the Veteran has expressed suicidal
and homicidal thoughts, the record does not
establish that he is a persistent danger to himself or
others, particularly since the Veteran consistently
has made such execution of plans contingent on
other events or factors. Additionally, neither the lay
nor the medical evidence shows total social
impairment. The Veteran has been married

57a
throughout this appeal. Although marital conflict
was noted, the record shows that the Veteran and
his spouse have a supportive relationship as
demonstrated by his report that his spouse schedules
his medical appointments and records showing that
she accompanied him on medical visits. The record
shows that the Veteran and his spouse live together
along with their son, and that the Veteran reported
a good relationship with his son. There is no
indication that the Veteran’s relationship with his
son has changed. The record shows that the Veteran
attends his doctor visits, and has participated in
group therapy sessions for his psychiatric symptom
during this appeal. To the extent that the Veteran
experiences near-continuous depression, this has not
resulted
in
any
inability
to
functioning
independently, appropriately, and effectively.
Although the record shows some impaired impulse
control and anger issues, the Veteran has
consistently denied episodes of violence.
The Board has considered the Veteran’s GAF score,
which is indicative of serious symptoms (e.g.,
suicidal ideation, severe obsessional rituals, frequent
shoplifter) or any serious impairment in social,
occupational, or school functioning (e.g., no friends,
unable to keep a job). See Richard v. Brown, 9 Vet.
App. 266, 267 (1996), citing the Diagnostic and
Statistical Manual of Mental Disorders (4th ed.
1994) (DSM-IV). However, the medical professionals
examining the Veteran clearly indicated that the
Veteran did not have total occupational and social
impairment due to his symptoms.

58a
The
Board
believes
that
the
Veteran’s
symptomatology more nearly reflects the criteria for
a 70 percent disability evaluation. F or example, he
has disturbances of mood and motivation to include
feelings of depression, anxiety, and suicidal
thoughts, but these symptoms have not been so
frequent or severe to keep him from attending
medical
appointments,
group
therapy,
and
maintaining his marriage albeit with difficulty. He
had no panic attacks. He had suicidal and homicidal
thoughts but neither his statements nor the medical
findings reflect that he is a persistent danger to
himself or others. He has not tried to kill himself
since 1994 during service, and he declined
psychiatric help for his suicidal and homicidal
thoughts. The record shows that the Veteran is able
to attend to the activities of daily living to include
the maintenance of minimal personal hygiene.
Additionally, although he experiences chronic sleep
impairment, there is no memory loss, difficulty in
understanding complex commands, or impaired
judgment or insight shown. The Veteran is not
without friends. He reported on VA examination in
2011 that his friends were limited to his brothers,
his son, and “guess my grandkids.” The Veteran’s
constellation of symptoms is more consistent with
the criteria for a 70 percent rating based on
deficiencies in most areas, and does not more nearly
reflect total occupational and social impairment.
The Board has considered the vocational assessment
dated in March 2016, which reflects that the Veteran
is precluded from work by his service-connected
major depression alone. However, the vocational
expert does not acknowledge any level of social

59a
impairment, much less total social impairment, that
would support a higher schedular disability rating
for MDD. Also, his statement of total disability is
incongruous with his acknowledgement that the
symptoms cause diminished ability to function
independently without any discussion thereof. The
Board finds that his medical conclusions are of
diminished probative value as he not a medical
professional and his findings are incongruous with
his discussion of the Veteran’s symptoms.
As finder of fact, it is within the Board’s province to
determine the probative weight of evidence.
Buchanan v. Nicholson, 451 F .3d 1331, 1336
(Fed.Cir.2006). The Veteran’s statements along with
the VA examination findings in 2011 are highly
probative in this matter. Here, the evidence more
nearly reflect the criteria for the currently assigned
70 percent evaluation, and do not more nearly reflect
the criteria for the next higher rating, 100 percent,
based on total occupational and social impairment.
Notably, the Veteran’s private attorney has not
made any specific argument as to how the Veteran
meets the criteria for increase or presented a
favorable medical opinion in this matter.
Weighing the evidence of record, the Board finds
that the Veteran’s MDD symptomatology more
closely approximates the schedular criteria for a 70
percent rating. Furthermore, the Board finds that a
uniform 70 percent evaluation is warranted; the
criteria for a higher evaluation are not met at any
time during this appeal. Fenderson v. West, 12 Vet.
App. 119, 126 (2001). See also Hart v. Mansfield, 21
Vet. App. 505 (2007) (staged ratings are appropriate

60a
when the factual findings show distinct period where
the service-connected disability exhibits symptoms
that would warrant different ratings).
Accordingly, the claim for a higher initial evaluation
is denied. As the evidence is not in equipoise, there
is no doubt to resolve. 38 U.S.C.A. § 5107(b); Gilbert,
supra.
IV.

Effective Dates of Claims

The law specifies that, unless otherwise provided,
the effective date of an award of compensation based
on an original application shall be fixed in
accordance with the facts found, but shall not be
earlier than the date of receipt of the application
therefor. 38 U.S.C.A. § 5110(a) (West 2014); 38
C.F .R. § 3.400 (2015). The Board notes that the
effective date of an award of increased compensation
may, however, be established at the earliest date as
of which it is factually ascertainable that an increase
in disability had occurred, if the application for an
increased evaluation is received within one year
after that date. 38 U.S.C.A. § 5110(b) (2); 38 C.F .R.
§ 3.400(o)(2).
In addition, the Court has held it is axiomatic that,
in the latter circumstance above, the serviceconnected disability must have increased in severity
to a degree warranting an increase in compensation.
See Hazan v. Gober, 10 Vet. App. 511, 519 (1992)
(noting that, under section 5110(b) (2) which
provides that the effective date of an award of
increased compensation shall be the earliest date of
which it is ascertainable that an increase in

61a
disability had occurred, “the only cognizable
‘increase’ for this purpose is one to the next
disability level” provided by law for the particular
disability). Thus, determining whether an effective
date assigned for an increased rating is correct or
proper under the law requires (1) a determination of
the date of the receipt of the claim for the increased
rating as well as (2) a review of all the evidence of
record to determine when an increase in disability
was “ascertainable.” Id. at 521.
A claim is a formal or informal communication in
writing requesting a determination of entitlement or
evidencing a belief in entitlement to a benefit. 38
U.S.C.A. § 101(30); 38 C.F.R. § 3.l(p).
The date of receipt shall be the date on which a
claim, information or evidence was received by VA.
38 U.S.C.A. § 101(30); 38 C.F .R. § 3.l(r). Any
communication or action, indicating intent to apply
for one or more benefits under the laws administered
by VA, from a claimant, his or her duly authorized
representative, a Member of Congress, or some
person acting as next friend of a claimant who is not
sui juris may be considered an informal claim. Such
informal claims must identify the benefit sought. 38
C.F.R. § 3.155.
Under 38 C.F .R. § 3.157, a report of examination or
hospitalization will be accepted as an informal claim
for benefits. However the provisions of 38 C.F.R.
§ 3.157(b)(1) state that such reports must relate to
examination or treatment of a disability for which
service-connection has previously been established
or that the claim specifying the benefit sought is

62a
received within one year from the date of such
examination, treatment, or hospital admission. 38
C.F.R. § 3.157(b)(1).
A.

Lumbosacral Spine Disability

Having carefully reviewed the record, the Board
finds that an effective date earlier than September
18 2009 for the award of a 40 percent evaluation for
lumbosacral spine disability is not warranted.
On September 18, 2009, the Veteran called the RO
and requested to file a claim for increase for his low
back. See VA Form 119 (October 5, 2009). This phone
call was documented on VA F orm 119 and accepted
as an informal claim for increase. Prior to September
18, 2009, VA had received no claim (informal or
otherwise) for increase, and it is not factually
ascertainable in the year period prior to September
18, 2009 that an increased evaluation was
warranted. All the evidence of record has been
reviewed to determine whether an increase in
disability was “ascertainable.” However, although
the record shows complaints of severe low back pain
and findings for multi-level degenerative disk
disease during the year preceding the date of the
formal claim, the record does not include either
complaints or medical findings that make it
“factually ascertainable” that the Veteran met the
scheduler criteria for an increased rating at any time
during the one-year period prior to September 18,
2009. To the extent that the Veteran reports or
suggests that he did in fact meet the criteria for
increase during the year preceding his formal claim
in September 2009, the Board finds that his generic

63a
report has diminished probative value as he had not
reported nor did the medical evidence show that
forward flexion limited to 30 degrees or less, or
favorable ankylosis of the thoracolumbar spine.
Thus, while the Veteran is competent to report his
symptoms, Layno, supra, the Board finds that his
statements have diminished probative value as they
are vague and non-specific, and not bolstered by the
medical evidence during the year prior to his
September 2009 claim for increase.
The Board observes that neither the Veteran nor his
attorney has pointed to any particular VA treatment
record or other document as evidence showing that
entitlement to an increase was factually
ascertainable at an earlier date. The Board further
observes that, following VA’ s notification of the
grant of service connection for the low back in July
1996, the RO had not received any correspondence or
other contact from the Veteran prior to September
18, 2009. The Board accepts that the Veteran had
worsened symptoms prior to his phone call to the RO
in September 2009 requesting an increase. However,
it is not factually ascertainable that he met the
criteria for a higher evaluation at the time of the
phone call in September 2009 or the year prior
thereto.
Accordingly, the claim is denied. Because the
evidence is not roughly in equipoise, the benefit-ofthe-doubt does not apply. 38 U.S.C.A. § 5107; 38
C.F.R. § 3.102; and Gilbert supra.

64a
B.

MDD

Having carefully reviewed the record, the Board
finds that an effective date of September 18, 2009,
and no earlier, is warranted for the grant of service
connection for the Veteran’s psychiatric disability
(major depressive disorder or MDD). The record
shows that VA received on September 18, 2009, an
informal claim for service connection for psychiatric
disability, claimed as PTSD. See VA F orm 119
(September 18, 2009). It is noted that, when a
claimant makes a claim, he is seeking service
connection for symptoms regardless of how those
symptoms are diagnosed or labeled. Clemons v.
Shinseki, 23 Vet. App. 1 (2009).
However, there is no legal basis for the assignment
of an effective date earlier than September 18, 2009
for the award for service connection for MDD
because the effective of the award is the date of
receipt of the claim or the date entitlement arose,
whichever is later. 38 C.F .R. § 3.400. In this case,
the later date is September 18, 2009.
The Board observes that VA received no claim
(informal or otherwise) for service connection for any
psychiatric disability prior to September 19, 2009.
Notably, prior to this date, VA had not received any
correspondence from the Veteran or a representative
since 1996. Also, although the Veteran had filed an
original VA compensation claim in April 1971 and a
claim for benefits in March 1996, these did not
include any claim for psychiatric disorder or
problems that could be reasonably construed as a
claim for service connection for psychiatric disability.

65a
Accordingly, the claim for an effective date of
September 18, 2009, and no earlier, for the award for
service connection for MDD is granted.
V.

TDIU

The Board has considered all the evidence of record,
to include the March 2015 private vocational
assessment.
TDIU is granted. Where the schedular rating is less
than total, a total disability rating for compensation
purposes may be assigned when the disabled person
is unable to secure or follow a substantially gainful
occupation as a result of service­connected
disabilities, provided that, if there is only one such
disability, this disability shall be ratable at 60
percent or more, or if there are two or more
disabilities, there shall be at least one ratable at 40
percent or more, and sufficient additional disability
to bring the combined rating to 70 percent or more.
38 C.F.R. §§ 3.340, 3.341, 4.16(a) (2015).
Here, the Veteran meets the numeric evaluation for
TDIU and the record shows that he has mental and
physical impairment due to service-connected
disability that precludes gainful employment,
resolving all doubt in favor of the Veteran. Notably,
the Veteran has a 70 percent evaluation for MDD
and a 40 percent evaluation for lumbosacral spine
disability along with other disabilities rated at 10
percent or less; his combined disability evaluation is
80 percent.

66a
The evidence establishes that the Veteran is unable
to engage in substantially gainful employment due
to the mental and physical limitations imposed by
service­connected disability.
ORDER
Service connection for PTSD is granted.
An initial evaluation in excess of 70 percent for MDD
is denied.
An effective date earlier than September 18, 2009 for
the award of a 40 percent evaluation for lumbosacral
spine disability is denied.
An effective date of September 18, 2009, and no
earlier, for the award of service connection for MDD
is granted.
TDIU is granted.
REMAND
After careful review of the record, the Board finds
that further development is required. VA’s duty to
assist requires that VA obtain a medical
examination when necessary to decide the claim. 38
C.F.R. § 3.159(c)(4).

67a
A.
Claims for Increase: Low Back, F ingers of
Right Hand, and Left Knee
Where the evidence of record does not reflect the
current state of the disability, a VA examination
must be conducted. Schafrath v. Derwinski, 1 Vet.
App. 589, 592 (1991). Also, reexamination will be
requested whenever there is a need to verify either
the continued existence or the current severity of a
disability. 38 C.F.R. § 3.327(a).
In this case, the Board finds that reports of VA
examination dated in June 2010 of the right hand’s
fingers, left knee, and spine are inadequate for
rating purposes.
Report of VA examination of the “Hand, Fingers, and
Thumb” does not fully address the Veteran’s
functional impairment, if any, due to pain,
incoordination, weakness, fatigue, or lack of
endurance with repetitive motion. It is noted that
the Veteran reported symptoms of weakness and
“stinging of the fingers,” but the examiner did not
address whether there was any residual muscle
injury or neurological impairment related to his
disability or the underlying injury.
Report of VA examination of the knee dated in June
2010 reflects that the Veteran had arthroscopic
surgery on the left knee in the early 1990’s. The
Veteran complained of left knee giving way,
instability, pain, stiffness, decreased speed of joint
motion, locking episodes (1-3 times a month), and
impaired range of motion. The Veteran reported that
he was unable to walk more than a few yards, and

68a
he intermittent but frequently used a walker.
Objective examination of the Veteran failed to
address whether there was joint laxity with
recurrent subluxation or lateral instability of the left
knee joint; and whether the Veteran had “frequent
episodes of ‘locking,’ pain and effusion into the joint.”
Also, the examiner failed to address whether there
was
functional
impairment
due
to
pain,
incoordination, weakness, fatigue, or lack of
endurance with repetitive motion.
Report of VA examination of the spine dated in June
2010 reflects that the Veteran complained of
numbness and paresthesias, and symptoms of pain
radiating down both legs—described as stinging and
burning. It was noted that an April 2009 MRI
showed severe back pain with radiculopathy due to
degenerative disk disease with virtually every
lumbar segment affected to some degree. It was
further noted that an EMG/NCS, no date given, was
negative
for
radiculopathy
and
peripheral
neuropathy of the left or right lower extremities. The
examiner did not address the Veteran’s functional
impairment, if any, due to pain, incoordination,
weakness, fatigue, or lack of endurance with
repetitive motion. Also, the examiner did not address
the etiology of the Veteran’s lower extremity
complaints. Notably, a private neurology treatment
record dated in February 2010 shows an assessment
for lumbar radiculopathy—noting diffuse weakness
of lower extremities, hypoesthesia to pinprick, and
absent knee/ankle jerks bilaterally.
Additionally, in April 2015, the Veteran’s attorney
submitted additional pertinent private medical

69a
records concerning the spine and left knee without
waiving consideration by the AOJ.
Therefore, in regard to the low back, right hand
fingers, and left knee, remand for new VA
examinations is necessary to fully address all
symptoms and provide detailed clinical findings for
consideration in the context of the schedular criteria.
B.
Service
Disability

Connection

for

Bilateral

Ankle

The Veteran seeks service-connected for right and
left ankle disabilities. He reported symptoms of
swelling. He suggested that this is attributable to
service, specifically his parachuting activities. Also,
in April 2015, the Veteran’s attorney submitted a
November 2011 letter indicating that the Veteran
had moderate venous insufficiency of the lower
extremities. Therefore, because the VA examination
dated in June 2011 did not take into account the
Veteran’s venous insufficiency and recognizing that
claimants are actually seeking consideration of all
symptoms reasonably encompassed by the claim,
remand is necessary for a new VA examination
addressing the etiology of the Veteran’s ankle
swelling and lower extremity vascular insufficiency,
to include an opinion on whether it is etiology
related to service or secondary to service-connected
disability.
Accordingly, the case is REMANDED for the
following action:

70a
1. All updated pertinent treatment records
should be requested and associated with the
claims file.
2. The Veteran should be scheduled for a VA
examination of the “Hand, F ingers, and
Thumb” to ascertain the severity of serviceconnected residuals of laceration and tendon
injury to the index and middle fingers of the
right (major) hand. All symptoms and
clinical findings should be reported in detail,
to include complaints or findings pertaining
to muscle and neurological involvement, if
any. The examiner should address whether
the Veteran has functional impairment due
to pain, incoordination, weakness, fatigue, or
lack of endurance with repetitive motion. It
is noted that the Veteran reported symptoms
of weakness and “stinging of the fingers” on
VA examination in June 2010. The examiner
should address whether there is muscle
impairment or neurological abnormality that
is as likely as not (50 percent or greater
probability) related to the Veteran’s serviceconnected right index and middle fingers
disability or the underlying injury. It is
noted that “cardinal signs and symptoms” of
muscle disability are loss of power,
weakness, lowered threshold of fatigue,
fatigue-pain, impairment of coordination and
uncertainty of movement. All pertinent
evidence in the Veteran’s claims file should
be reviewed. A complete rational for all
opinions is required.

71a
3. The Veteran should be scheduled for a VA
examination to ascertain the severity of
service-connected left knee disability. All
appropriate tests deemed necessary should
be conducted and all clinical findings should
be reported in detail. Range of motion testing
should be recorded to include the point at
which pain begins and ends. Three
repetitions of use should be conducted, if
possible, to determine whether there is
additional loss of motion, or increased pain,
fatigue, weakness, lack of endurance, or
incoordination. The examiner should indicate
the severity of any subluxation or lateral
instability found to include whether the
Veteran uses any appliances or devices. The
examiner should further indicate whether
the Veteran has “frequent episodes of
‘locking,’ pain and effusion into the joint.” All
pertinent evidence in the Veteran’s claims
file should be reviewed. A complete rationale
for all opinions is required.
4. The Veteran should be scheduled for a VA
examination to ascertain the severity of
service-connected
lumbosacral
spine
disability to include whether there is any
associated neurological abnormality of the
lower extremities. All appropriate tests
deemed necessary should be conducted and
all clinical findings should be reported in
detail. Range of motion testing should be
recorded to include the point at which pain
begins and ends. Three repetitions of use
should be conducted, if possible, to determine

72a
whether there is additional loss of motion, or
increased pain, fatigue, weakness, lack of
endurance, or incoordination. The examiner
should indicate whether the Veteran has
“unfavorable ankylosis of the entire
thoracolumbar spine” and, if so, the date of
this is objectively shown. The examiner
should indicate whether the Veteran has any
neurological abnormality of the lower
extremities
associated
with
his
service­connected spondylolisthesis of the
lumbosacral spine—and if so, type nerve
group(s) involved and severity. All pertinent
evidence in the Veteran’s claims file should
be reviewed. A complete rationale for all
opinions is required.
5. The Veteran should be scheduled for a VA
examination
of
the
ankles
by
an
appropriately skilled physician to address
the etiology of his complaints of swelling and
the documented findings for vascular
insufficiency. Also, for each ankle/lower
extremity, the physician should indicate:
(a) Whether it is as likely as not (50 percent
probability or more) that any currently
shown disorder is etiologically related to
service, to include the Veteran’s history of
parachute jumps; and
(b) Whether it is as likely as not (50 percent
probability or more) that any currently
shown disorder is proximately due to or
aggravated by service-connected disability.

73a
Aggravation is defined as a permanent
worsening of the nonservice-connected
disability beyond that due to the natural
disease process as contrasted to temporary or
intermittent flare-ups of symptomatology
which resolve with return to the baseline
level of disability.
All pertinent evidence in the claims file must
be reviewed by the physician. A complete
rationale for all opinions is required. The
physician should identify and explain the
relevance or significance, as appropriate, of
any history, clinical findings, medical
knowledge or literature, etc., relied upon in
reaching the conclusions. If an opinion
cannot be expressed without resort to
speculation, the examiner should so indicate
and discuss why an opinion is not possible, to
include whether there is additional evidence
that could enable an opinion to be provided,
or whether the inability to provide the
opinion is based on the limits of medical
knowledge.
6. Then, the AOJ should ensure that the
requested
examinations
contained
all
information sought and that all opinions
include complete rationales. The AOJ should
undertake any other development it
determines to be warranted.
7. After the development requested above
has been completed to the extent possible,
the AOJ should readjudicate the issues on

74a
appeal. If the benefits sought on appeal are
not granted to the Veteran’s satisfaction, he
and his attorney should be furnished a
Supplemental Statement of the Case and
given the requisite opportunity to respond
before the claims files are returned to the
Board for further appellate action.
The Veteran has the right to submit additional
evidence and argument on the matter or matters the
Board has remanded. Kutscherousky v. West, 12 Vet.
App. 369 (1999).
This claim must be afforded expeditious treatment.
The law requires that all claims that are remanded
by the Board of Veterans’ Appeals or by the United
States Court of Appeals for Veterans Claims for
additional development or other appropriate action
must be handled in an expeditious manner. See 38
U.S.C.A. §§ 5109B, 7112 (West 2014).
/s/ Michael Lane
MICHAEL LANE
Veterans Law Judge, Board of Veterans’ Appeals

75a
APPENDIX D
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
ROBERT M. SELLERS,
Claimant-Appellee
v.
ROBERT L. WILKIE, SECRETARY
OF VETERANS AFFAIRS,
Respondent-Appellant
2019-1769
Appeal from the United States Court of Appeals
for Veterans Claims in No. 16-2993, Judge Mary J.
Schoelen, Judge Michael P. Allen, Senior Judge
Robert N. Davis.
ON PETITION FOR REHEARING
EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
CLEVENGER ∗, DYK, MOORE, O’MALLEY, REYNA,
Circuit Judge Clevenger participated only in the
decision on the petition for panel rehearing.
∗

76a
WALLACH, TARANTO, CHEN, HUGHES, and STOLL,
Circuit Judges.
PER CURIAM.
ORDER
Appellee Robert M. Sellers filed a petition for rehearing en banc. The petition was first referred as a
petition for rehearing to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on October 8,
2020.
FOR THE COURT
October 1, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

77a
APPENDIX E
Designated for electronic publication only
UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
No. 16-2993
ROBERT M. SELLERS,

APPELLANT,

v.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,

APPELLEE.

Before DAVIS, Chief Judge, and SCHOELEN,
PIETSCH, BARTLEY, GREENBERG, ALLEN,
MEREDITH, TOTH, and FALVEY, Judges.
ORDER
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
On November 20, 2018, the Court denied the
Secretary’s motion for panel reconsideration. The
Court noted that the motion for full-Court review
was held in abeyance pending further order of the
Court.
“Motions for full-Court review are not favored.
Ordinarily they will not be granted unless such
action is necessary to secure or maintain uniformity
of the Court’s decisions or to resolve a question of
exceptional importance.” U.S. VET. APP. R. 35(c). In

78a
this matter, the Secretary has not shown that either
basis exists to warrant full-Court review.
Upon consideration of the foregoing, it is
ORDERED that the motion for full-Court review
is denied.
DATED: January 30, 2019
Copies to:
John F. Cameron, Esq.
VA General Counsel (027)

PER CURIAM.

79a
APPENDIX F
Not published
NON-PRECEDENTIAL
UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
NO. 16-2993
ROBERT M. SELLERS,

APPELLANT,

V.

ROBERT L. WILKIE,
SECRETARY OF VETERANS
AFFAIRS,

APPELLEE.

Before DAVIS, Chief Judge, and SCHOELEN and
ALLEN, Judges.
ORDER
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
On August 23, 2018, in a panel decision, the
Court set aside the April 29, 2016, Board of
Veterans’ Appeals (Board) decision that, among
other things, denied an effective date earlier than
September 18, 2009, for the service-connected major
depressive disorder. On September 13, 2018, the
Secretary filed a timely motion for reconsideration
and/or for full-Court review. “[A] motion for … panel
[reconsideration] … shall state the points of law or

80a
fact that the party believes the Court has overlooked
or misunderstood.” U.S. VET. APP. R. 35(e)(1). The
Court did not overlook or misunderstand any points
of law or fact that was properly before it. The
Secretary has not presented any argument that
warrants reconsideration by the panel.
Upon consideration of the foregoing, it is
ORDERED that the motion for reconsideration
by the panel is denied. It is further
ORDERED that the motion for full-Court
consideration is held in abeyance pending further
order of the Court.
DATED: November 20, 2018
Copies to:
John F. Cameron, Esq.
VA General Counsel (027)

PER CURIAM.

81a
APPENDIX G
Not Published
UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
NO: 16-2993
ROBERT M. SELLERS, APPELLANT,
V.

ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS, APPELLEE.
JUDGMENT
The Court has issued a decision in this case, and
has acted on a motion under Rule 35 of the Court’s
Rules of Practice and Procedure.
Under Rule 36, judgment is entered and effective
this date.
Dated: January 30, 2019

FOR THE COURT:
GREGORY O. BLOCK
Clerk of the Court

Copies to:
John F. Cameron, Esq.
VA General Counsel (027)

By: /s/ Abie M. Ngala
Deputy Clerk

82a
APPENDIX H
United States Code
Title 38. Veterans’ Benefits
38 U.S.C. § 1110 (1996)
§ 1110. Basic entitlement
For disability resulting from personal injury suffered
or disease contracted in line of duty, or for
aggravation of a preexisting injury suffered or
disease contracted in line of duty, in the active
military, naval, or air service, during a period of war,
the United States will pay to any veteran thus
disabled and who was discharged or released under
conditions other than dishonorable from the period
of service in which said injury or disease was
incurred, or preexisting injury or disease was
aggravated, compensation as provided in this
subchapter, but no compensation shall be paid if the
disability is a result of the veteran’s own willful
misconduct or abuse of alcohol or drugs.

83a
APPENDIX I
United States Code
Title 38. Veterans’ Benefits
38 U.S.C. § 5101 (1996)
§ 5101. Claims and forms
(a) A specific claim in the form prescribed by the
Secretary (or jointly with the Secretary of Health
and Human Services, as prescribed by section 5105
of this title) must be filed in order for benefits to be
paid or furnished to any individual under the laws
administered by the Secretary.
(b)
(1) A claim by a surviving spouse or child for
compensation or dependency and indemnity
compensation shall also be considered to be a claim
for death pension and accrued benefits, and a claim
by a surviving spouse or child for death pension
shall be considered to be a claim for death
compensation (or dependency and indemnity
compensation) and accrued benefits.
(2) A claim by a parent for compensation or
dependency and indemnity compensation shall also
be considered to be a claim for accrued benefits.
(c)
(1) Any person who applies for or is in receipt of
any compensation or pension benefit under laws
administered by the Secretary shall, if requested

84a
by the Secretary, furnish the Secretary with the
social security number of such person and the
social security number of any dependent or
beneficiary on whose behalf, or based upon whom,
such person applies for or is in receipt of such
benefit. A person is not required to furnish the
Secretary with a social security number for any
person to whom a social security number has not
been assigned.
(2) The Secretary shall deny the application of or
terminate the payment of compensation or pension
to a person who fails to furnish the Secretary with
a social security number required to be furnished
pursuant to paragraph (1) of this subsection. The
Secretary
may
thereafter
reconsider
the
application or reinstate payment of compensation
or pension, as the case may be, if such person
furnishes the Secretary with such social security
number.
(3) The costs of administering this subsection shall
be paid for from amounts available to the
Department of Veterans Affairs for the payment of
compensation and pension.

85a
APPENDIX J
United States Code
Title 38. Veterans’ Benefits
38 U.S.C. § 5107 (1996)
§ 5107. Burden of proof; benefit of the doubt
(a) Except when otherwise provided by the Secretary
in accordance with the provisions of this title, a
person who submits a claim for benefits under a law
administered by the Secretary shall have the burden
of submitting evidence sufficient to justify a belief by
a fair and impartial individual that the claim is well
grounded. The Secretary shall assist such a claimant
in developing the facts pertinent to the claim. Such
assistance shall include requesting information as
described in section 5106 of this title.
(b) When, after consideration of all evidence and
material of record in a case before the Department
with respect to benefits under laws administered by
the Secretary, there is an approximate balance of
positive and negative evidence regarding the merits
of an issue material to the determination of the
matter, the benefit of the doubt in resolving each
such issue shall be given to the claimant. Nothing in
this subsection shall be construed as shifting from
the claimant to the Secretary the burden specified in
subsection (a) of this section.

86a
APPENDIX K
United States Code
Title 38. Veterans’ Benefits
38 U.S.C. § 5110 (1996)
§ 5110. Effective dates of awards
(a) Unless specifically provided otherwise in this
chapter, the effective date of an award based on an
original claim, a claim reopened after final
adjudication, or a claim for increase, of
compensation,
dependency
and
indemnity
compensation, or pension, shall be fixed in
accordance with the facts found, but shall not be
earlier than the date of receipt of application
therefor.
(b)
(1) The effective date of an award of disability
compensation to a veteran shall be the day
following the date of the veteran's discharge or
release if application therefor is received within
one year from such date of discharge or release.
(2) The effective date of an award of increased
compensation shall be the earliest date as of which
it is ascertainable that an increase in disability
had occurred, if application is received within one
year from such date.
(3)

87a
(A) The effective date of an award of disability
pension to a veteran described in subparagraph
(B) of this paragraph shall be the date of
application or the date on which the veteran
became permanently and totally disabled, if the
veteran applies for a retroactive award within
one year from such date, whichever is to the
advantage of the veteran.
(B) A veteran referred to in subparagraph (A) of
this paragraph is a veteran who is permanently
and totally disabled and who is prevented by a
disability from applying for disability pension for
a period of at least 30 days beginning on the date
on which the veteran became permanently and
totally disabled.
(c) The effective date of an award of disability
compensation by reason of section 1151 of this title
shall be the date such injury or aggravation was
suffered if an application therefor is received within
one year from such date.
***
(g) Subject to the provisions of section 5101 of this
title, where compensation, dependency and
indemnity compensation, or pension is awarded or
increased pursuant to any Act or administrative
issue, the effective date of such award or increase
shall be fixed in accordance with the facts found but
shall not be earlier than the effective date of the Act
or administrative issue. In no event shall such
award or increase be retroactive for more than one
year from the date of application therefor or the date

88a
of administrative determination of entitlement,
whichever is earlier.
***
(i) Whenever any disallowed claim is reopened and
thereafter allowed on the basis of new and material
evidence resulting from the correction of the military
records of the proper service department under
section 1552 of title 10, or the change, correction, or
modification of a discharge or dismissal under
section 1553 of title 10, or from other corrective
action by competent authority, the effective date of
commencement of the benefits so awarded shall be
the date on which an application was filed for
correction of the military record or for the change,
modification, or correction of a discharge or
dismissal, as the case may be, or the date such
disallowed claim was filed, whichever date is the
later, but in no event shall such award of benefits be
retroactive for more than one year from the date of
reopening of such disallowed claim. This subsection
shall not apply to any application or claim for
Government life insurance benefits.
***

89a
APPENDIX L
Code of Federal Regulations
Title 38. Pensions, Bonuses, and Veterans’ Relief
38 C.F.R. § 3.1 (1996)
§ 3.1. Definitions
***
(p) Claim-Application means a formal or informal
communication
in
writing
requesting
a
determination of entitlement or evidencing a belief
in entitlement, to a benefit.
***

90a
APPENDIX M
Code of Federal Regulations
Title 38. Pensions, Bonuses, and Veterans’ Relief
38 C.F.R. § 3.152 (1996)
§ 3.152. Claims for death benefits
(a) A specific claim in the form prescribed by the
Secretary (or jointly with the Secretary of Health
and Human Services, as prescribed by §3.153) must
be filed in order for death benefits to be paid to any
individual under the laws administered by VA. (See
§3.400(c) concerning effective dates of awards.)
(b)
(1) A claim by a surviving spouse or child for
compensation or dependency and indemnity
compensation will also be considered to be a claim
for death pension and accrued benefits, and a claim
by a surviving spouse or child for death pension
will be considered to be a claim for death
compensation or dependency and indemnity
compensation and accrued benefits.
(2) A claim by a parent for compensation or
dependency and indemnity compensation will also
be considered to be a claim for accrued benefits.
(c)
(1) Where a child’s entitlement to dependency and
indemnity compensation arises by reason of
termination of a surviving spouse’s right to

91a
dependency and indemnity compensation or by
reason of attaining the age of 18 years, a claim will
be required. (38 U.S.C. 5110(e).) (See paragraph
(c)(4) of this section.) Where the award to the
surviving spouse is terminated by reason of her or
his death, a claim for the child will be considered a
claim for any accrued benefits which may be
payable.
(2) A claim filed by a surviving spouse who does not
have entitlement will be accepted as a claim for a
child or children in her or his custody named in the
claim.
(3) Where a claim of a surviving spouse Is
disallowed for any reason whatsoever and where
evidence requested in order to determine
entitlement from a child or children named in the
surviving spouse's claim is submitted within 1 year
from the date of request, requested either before or
after disallowance of the surviving spouse’s claim,
an award for the child or children will be made as
though the disallowed claim had been filed solely
on their behalf. Otherwise, payments may not be
made for the child or children for any period prior
to the date of receipt of a new claim.
(4) Where payments of pension, compensation or
dependency and indemnity compensation to a
surviving spouse have been discontinued because
of remarriage or death, or a child becomes eligible
for dependency and indemnity compensation by
reason of attaining the age of 18 years, and any
necessary evidence is submitted within 1 year from
date of request, an award for the child or children

92a
named in the surviving spouse’s claim will be made
on the basis of the surviving spouse’s claim having
been converted to a claim on behalf of the child.
Otherwise, payments may not be made for any
period prior to the date of receipt of a new claim.

93a
APPENDIX N
Code of Federal Regulations
Title 38. Pensions, Bonuses, and Veterans’ Relief
38 C.F.R. § 3.159 (1996)
§ 3.159. Department of Veterans Affairs
assistance in developing claims
(a) Although it is the responsibility of any person
filing a claim for a benefit administered by the
Department of Veterans Affairs to submit evidence
sufficient to justify a belief in a fair and impartial
mind that the claim is well grounded, the
Department of Veterans Affairs shall assist a
claimant in developing the facts pertinent to his or
her claim. This requirement to provide assistance
shall not be construed as shifting from the claimant
to the Department of Veterans Affairs the
responsibility to produce necessary evidence.
(b) When information sufficient to identify and locate
necessary evidence is of record, the Department of
Veterans Affairs shall assist a claimant by
requesting, directly from the source, existing
evidence which is-either in the custody of military
authorities or maintained by another F ederal
agency. At the claimant’s request, and provided that
he or she has authorized the release of such evidence
in a form acceptable to the custodian thereof, the
Department of Veterans Affairs shall assist a
claimant by attempting to obtain records maintained
by State or local governmental authorities and
medical, employment, or other nongovernment

94a
records which are pertinent and specific to the claim.
The Department of Veterans Affairs shall not pay
any fees charged by the custodian for providing such
evidence.
(c) Should its efforts to obtain evidence prove
unsuccessful for any reason which the claimant
could rectify, the Department of Veterans Affairs
shall so notify the claimant and advise him or her
that the ultimate responsibility for furnishing
evidence rests with the claimant.

95a
APPENDIX O
Code of Federal Regulations
Title 38. Pensions, Bonuses, and Veterans’ Relief
38 C.F.R. § 3.102 (1996)
§ 3.102. Reasonable doubt
It is the defined and consistently applied policy of
the Department of Veterans Affairs to administer
the law under a broad interpretation, consistent,
however, with the facts shown in every case. When,
after careful consideration of all procurable and
assembled data, a reasonable doubt arises regarding
service origin, the degree of disability, or any other
point, such doubt will be resolved in favor of the
claimant. By reasonable doubt is meant one which
exists because of an approximate balance of positive
and negative evidence which does not satisfactorily
prove or disprove the claim. It is a. substantial doubt
and one within the range of probability as
distinguished from pure speculation or remote
possibility. It is not a means of reconciling actual
conflict or a contradiction in the evidence; the
claimant is required to submit evidence sufficient to
justify a belief in a fair and impartial mind that the
claim is well grounded. Mere suspicion or doubt as to
the truth of any statements submitted, as
distinguished from impeachment or contradiction by
evidence or known facts, is not justifiable basis for
denying the application of the reasonable doubt
doctrine if the entire, complete record otherwise
warrants invoking this doctrine. The reasonable
doubt doctrine is also applicable even in the absence

96a
of official records, particularly if the basic incident
allegedly arose under combat, or similarly strenuous
conditions, and is consistent with the probable
results of such known hardships.

97a
APPENDIX P
Code of Federal Regulations
Title 38. Pensions, Bonuses, and Veterans’ Relief
38 C.F.R. § 3.103 (1996)
§ 3.103. Procedural due process and appellate
rights
(a) Statement of policy. Every claimant has the right
to written notice of the decision made on his or her
claim, the right to a hearing, and the right of
representation. Proceedings before VA are ex parte
in nature, and it is the obligation of VA to assist a
claimant in developing the facts pertinent to the
claim and to render a decision which grants every
benefit that can be supported in law while protecting
the interests of the Government. The provisions of
this section apply to all claims for benefits and relief,
and decisions thereon, within the purview of this
part 3.

98a
APPENDIX Q
OMB Approved No. 2900-0001
Respondent Burden: 1 hour and 30 minutes
Department of
Veterans Affairs

VETERAN’S
APPLICATION FOR
COMPENSATION OR
PENSION

IMPORTANT: Read attached General
Specific Instructions before
completing this form. Type, print, or
write plainly.
1A. FIRST, MIDDLE,
LAST NAME OF
VETERAN
Robert Michael
Sellers

1B.
TELEPHONE
NO. (Include
Area Code)
DAY:
[Redacted]
EVENING:

1C. IF YOU SERVED
UNDER ANOTHER
NAME, GIVE NAME
AND PERIOD
DURING WHICH
YOU SERVED AND
SERVICE NUMBER.

3A.
VETERAN’S
SOCIAL
SECURITY
NO.
[Redacted]

(DO NOT
WRITE IN
THIS
SPACE)
VA DATE
STAMP
Received
MAR 11
1996
[Redacted]

99a
2. MAILING
ADDRESS OF
VETERAN (Number
and street or rural
route, city or P.O.,
State and ZIP Code)
[Redacted]

3B.
SPOUSE’S
SOCIAL
SECURITY
NO.
[Redacted]

4. DATE
5.
OF BIRTH PLACE
[Redacted] OF
BIRTH
Alabama

6. SEX
Male

7. RAILROAD
RETIREMENT
NO.
NA

8. HAVE YOU EVER FILED A
CLAIM FOR COMPENSATION
FROM THE OFFICE OF WORKERS’
COMPENSATION PROGRAMS?
(Formerly the U.S. Bureau of
Employees Compensation)
YES NO

9A. VA
FILE
NUMBER
C[Redacted]

100a
9B. HAVE YOU PREVIOUSLY
FILED A CLAIM FOR ANY
BENEFIT WITH VA?
NONE
VOCATIONAL REHABILITATION
DENTAL OR OUTPATIENT
TREATMENT
HOSPITALIZATION OR MEDICAL
CARE
VETERANS EDUCATION
ASSISTANCE
WAIVER OF NSLI PREMIUMS
DISABILITY COMPENSATION OR
PENSION
DEPENDENTS EDUCATIONAL
ASSISTANCE
OTHER (Specify)

9C. VA
OFFICE
HAVING
YOUR
RECORDS
(If known)

SERVICE INFORMATION
NOTE: Enter complete information for each period of
active duty. Attach DD Form 214 or other separation
papers for all periods of active duty to expedite
processing of your claim. If you do NOT have your
DD Form 214 or other separation papers check ()
here 
10A. ENTERED ACTIVE
SERVICE
DATE

PLACE

4-17-64
1-15-81

10B. SERVICE NO.

[Redacted]
Montg. Al.

10C. SEPARATED FROM
ACTIVE SERVICE

[Redacted]
10D. GRADE, RANK
OR RATING,

101a
DATE

PLACE

ORGANIZATION OR
BRANCH OF SERVICE

2-7-69

Little
Creek, VA

BM2 Navy

2-29-96

Ft. Rucker,
Al.

Army E-5 SGT.

10E. HAVE
YOU EVER
BEEN A
PRISONER
OF WAR?
YES
NO
(If “Yes,”
complete
Items 10F
and 10 G)

10F.
NAME OF
COUNTRY

10G. DATES OF
CONFINEMENT

FILE:
PROCESSED BY
TARGET
110
DATE 3-12-96
NAME /s/

RESERVE AND NATIONAL GUARD SERVICE
NOTE: Enter complete information for each period of
Reserve and National Guard service. Attach any
separation papers you have.
11A. Entered Service
DATE

PLACE

11C. SEPARATED FROM
SERVICE
DATE

11B. SERVICE NO.

PLACE

11D. GRADE,
RANK OR
RATING,
ORGANIZATION,
OR BRANCH OF
SERVICE

102a
12. IF DISABILITY OCCURRED DURING ACTIVE
OR INACTIVE DUTY FOR TRAINING, GIVE
BRANCH OF SERVICE AND DATE OF
OCCURRENCE
Right Leg—Numbness & tingling—1995 (U.S.
Army) Hearing Loss
Left Knee Injury—11-7-81 / Back Injury from
Parachute Jume 1981 or 1982 / Rt Middle & Index
Finger Injury—July-90
13A. IF YOU
ARE NOW A
MEMBER OF
THE
RESERVE
FORCES OR
NATIONAL
GUARD GIVE
THE
BRANCH OF
SERVICE
NA

13B. RESERVE
STATUS
ACTIVE
INACTIVE
RESERVE
OBLIGATION

13C.
RESERVE
OR
NATIONAL
GUARD
UNIT
ADDRESS

14A. ARE YOU NOW
14B. BRANCH OF
RECEIVING OR
SERVICE
WILL YOU RECEIVE
Army
RETIREMENT OR
RETAINER PAY
FROM THE ARMED
FORCES?
YES NO
(If “Yes,” complete Item
14B, 14C, and 14D)
14C. MONTHLY
AMOUNT

14D. RETIRED STATUS
PERMANENT

103a
$857.00

TEMPORARY
DISABILITY RETIRED
LIST

15A. HAVE YOU
15B. AMOUNT
EVER APPLIED FOR
$
OR RECEIVED
DISABILITY
SEVERANCE PAY
FROM THE ARMED
FORCES?
YES NO
(If “Yes,” complete Item
15B)
16A. HAVE YOU
16B. AMOUNT
RECEIVED LUMP
$
SUM
READJUSTMENT OR
SEPARATION PAY
FROM THE ARMED
FORCES?
YES NO
(If “Yes,” complete Item
16B)
NATURE AND HISTORY OF DISABILITIES

104a
17. NATURE OF SICKNESS, DISEASE OR
INJURIES FOR WHICH THIS CLAIM IS MADE
AND DATE EACH BEGAN
Right Leg numbness—1995/ Left Knee Injury—
11/81/ Back Injury—6-1981 or 1982
Rt. Middle & INdex Finger Injury—July 1990.
(U.S. Army)
Hearing Loss—(See records of hearing tests)
18A. ARE YOU NOW OR HAVE YOU BEEN
HOSPITALIZED OR FURNISHED DOMICILIARY
CARE WITHIN THE PAST 3 MONTHS?
YES NO
(If “Yes,” complete Item 18B and 18C)
18B. DATES OF
HOSPITALIZATION OR
DOMICILIARY CARE

18C. NAME AND
ADDRESS OF
INSTITUTION

YOU MUST SIGN AND DATE THIS FORM AT
THE BOTTOM OF PAGE 10.
VA FORM 21-526 SUPERSEDES
VA FORM 21-526,
APR 1993
JUN 1992,
WHICH WILL
NOT BE USED

PAGE 7

SKIP ITEMS 19, 20 AND 21 IF YOU ARE NOT
CLAIMING COMPENSATION FOR A SERVICECONNECTED DISABILITY.
IF YOU RECEIVED ANY TREATMENT WHILE IN
SERVICE, COMPLETE THE FOLLOWING
INFORMATION (ATTACH TO THIS
APPLICATION COPIES OF ANY SERVICE
MEDICAL RECORDS YOU HAVE)

105a
19A. NATURE
OF SICKNESS,
DISEASE, OR
INJURY

19B. TREATMENT DATES
BEGINNING
DATE

ENDING
DATE

Left Knee Injury

11-7-81

discharge

Back Injury
Right Middle &
Index Fingers

1981.1982
July, 1990

discharge
1992

19C. NAME, NUMBER
OR LOCATION OF
HOSPITAL, FIRSTAID STATION,
DRESSING STATION,
OR INFIRMARY

19D.
ORGANIZATION/UNIT
AT TIME OF SICKNESS,
DISEASE, OR INJURY
WAS INCURRED

20th Special Forces
Montgomery, Al.

20th Special Forces

" & Maxwell AFB.
Maxwell AFB.

"
Det1-781st Trans. G’ana

20. LIST CIVILIAN PHYSICIANS AND
HOSPITALS WHERE YOU WERE TREATED FOR
ANY SICKNESS, INJURY, OR DISEASE FOR
WHICH YOU ARE CLAIMING SERVICE
CONNECTION BEFORE, DURING, OR SINCE
YOUR SERVICE, AND ANY MILITARY
HOSPITALS SINCE YOUR LAST DISCHARGE
A. NAME
NA

B.
PRESENT
ADDRESS

C. DISABILITY

D.
DATE

106a
21. LIST PERSONS OTHER THAN PHYSICIANS
WHO KNOW ANY FACTS ABOUT SICKNESS,
DISEASE, OR INJURY SHOWN IN ITEM 19A,
WHICH YOU HAD BEFORE, DURING, OR SINCE
YOUR SERVICE.
A. NAME

B.
PRESENT
ADDRESS

C.
DISABILITY

D. DATE

IF YOU CLAIM TO BE TOTALLY DISABLED
Complete Items 22A through 25E)
22A. ARE YOU
NOW EMPLOYED
YES NO

22B. IF YOU WERE SELFEMPLOYED BEFORE
BECOMING TOTALLY
DISABLED, WHAT PART OF
THE WORK DID YOU DO?

22C. DATE YOU
LAST WORKED

22D. IF YOU ARE STILL
SELF-EMPLOYED WHAT
PART OF THE WORK DO
YOU DO NOW?

23A. EDUCATION
(Circle highest year
completed)
12345678
(GRADE SCHOOL)
1234
(HIGH SCHOOL)
1234
(COLLEGE)

23B. NATURE OF AND TIME
SPENT IN OTHER
EDUCATION AND
TRAINING

107a
LIST ALL YOUR EMPLOYMENT, INCLUDING
SELF-EMPLOYMENT, FOR ONE YEAR BEFORE
YOU BECAME TOTALLY DISABLED
24A. NAME AND
ADDRESS OF
EMPLOYER

24B. KIND
OF WORK

24D. TIME LOST FROM
ILLNESS

24C.
MONTHS
WORKED

24E. TOTAL
EARNINGS

LIST ALL YOUR EMPLOYMENT, INCLUDING
SELF-EMPLOYMENT, SINCE YOU BECAME
TOTALLY DISABLED
25A. NAME AND
ADDRESS OF
EMPLOYER

25B. KIND
OF WORK

25D. TIME LOST FROM
ILLNESS

25C.
MONTHS
WORKED

25E. TOTAL
EARNINGS

MARITAL AND DEPENDENCY INFORMATION

108a
28A. MARITAL STATUS
(If widowed or divorced,
complete Items 26B, 26F
and 29A through 29D only)
MARRIED
WIDOWED
DIVORCED
NEVER MARRIED
(If so, do not complete Items
26B through 30D)

26B. SPOUSE’S
BIRTHDATE
11-16-46

26C. NUMBER OF TIMES
YOU HAVE BEEN
MARRIED
One

26D. NUMBER OF
TIMES YOUR
PRESENT SPOUSE
HAS BEEN MARRIED
Two

26E. IS YOUR SPOUSE
ALSO A VETERAN?
YES NO
(If “Yes,” complete Items
26F, if known)

26F. SPOUSE’S VA
FILE NO (if any)
C- NA

27A. DO YOU LIVE
TOGETHER?
YES NO
(If “No,” complete
Items 18B through
18D)
27D. AMOUNT YOU
CONTRIBUTE TO
YOUR SPOUSE’S
SUPPORT
MONTHLY
$

27B. REASON
FOR
SEPARATION
(For example,
marital
problems, job
requirements,
health, etc.)

27C.
PRESENT
ADDRESS
OF
SPOUSE

109a
28. CHECK ( ) WHETHER YOUR CURRENT
MARRIAGE WAS PERFORMED BY:
CLERGYMAN OR AUTHORIZED PUBLIC
OFFICIAL
OTHER (Explain)
YOU MUST SIGN AND DATE THIS FORM AT
THE BOTTOM OF PAGE 10.
PAGE 8
NOTE: Furnish the following information about each
of your marriages. A certified copy of the public or
church record of your CURRENT marriage is
required.
29A. DATE AND PLACE
OF MARRIAGE

29B. TO WHOM
MARRIED

11-7-71, ButlerCo.Al.

Victoria Joan Booker

29C. TERMINATED
(Death, Divorce)

29D. DATE AND PLACE
TERMINATED

NA

NA

FURNISH THE FOLLOWING INFORMATION
ABOUT EACH PREVIOUS MARRIAGE OF YOUR
PRESENT SPOUSE
30A. DATE AND PLACE
OF MARRIAGE

30B. TO WHOM
MARRIED

unk.

Charles Trolgen

30C. TERMINATED
(Death, Divorce)

30D. DATE AND PLACE
TERMINATED

110a
divorced

6-16-69, Greenville, AL

IDENTIFICATION OF CHILDREN AND
INFORMATION RELATIVE TO CUSTODY
NOTE: Furnish the following information for each of
your unmarried children. A certified copy of the
public or church record of birth or court record of
adoption is required.
31A. NAME OF
CHILD
(First, middle
initial, last)

31B. DATE
OF BIRTH
(Month, day,
year)

Mandy
Michelle Sellers

[Redacted]

31C. SOCIAL
SECURITY
NUMBER OF
CHILD

31D. CHECK EACH APPLICABLE CATEGORY
MARRIED
PREVIOUSLY

STEPCHILD
OR ADOPTED

OVER 18 ATTENDING
SCHOOL

ILLEGITIMATE

SERIOUSLY
DISABLED

X
31E. NAME(S)
OF ANY
CHILD(REN)
NOT IN YOUR
CUSTODY

31F. NAME
AND
ADDRESS OF
PERSON
HAVING
CUSTODY

31G. MONTHLY
AMOUNT YOU
CONTRIBUTE
TO CHILD’S
SUPPORT
$

111a
32A. IS YOUR
FATHER
DEPENDENT
UPON YOU
FOR
SUPPORT?
YES NO
(If “Yes,”
complete Item
34B)

32B. NAME
AND
ADDRESS OF
DEPENDENT
FATHER

32C. IS YOUR
MOTHER
DEPENDENT
UPON YOU FOR
SUPPORT
YES NO
(If “Yes,” complete
Item 32D)

32D. NAME
AND
ADDRESS OF
DEPENDENT
MOTHER

32E. NAME
AND
ADDRESS OF
NEAREST
RELATIVE
Margarette
G. Sellers
[Redacted]

32F.
RELATIONSHIP
OF NEAREST
RELATIVE
mother

NET WORTH OF VETERANS AND DEPENDENTS
NOTE: Items 33A through 33D should be completed
ONLY if you are applying for nonservice-connected
pension.
ITEM NO.

SOURCE

33A

STOCKS, BONDS,
BANK DEPOSITS

33B

REAL ESTATE (Do not
include residence)

33C

OTHER PROPERTY

33D

TOTAL NET WORTH
AMOUNTS

VETERAN

SPOUSE

NAME OF CHILDREN

112a
$

$

$

$

$

$

$

$

$

$

INCOME RECEIVED AND EXPECTED FROM ALL
SOURCES
NOTE: Items 34A through 39B should be completed
ONLY if you are applying for nonservice-connected
pension.
34A. HAVE YOU OR
YOUR SPOUSE
APPLIED FOR OR ARE
YOU RECEIVING OR
ENTITLED TO
RECEIVE ANY
BENEFITS FROM THE
SOCIAL SECURITY
ADMINISTRATION
(OTHER THAN SSI) OR
RAILROAD
RETIREMENT BOARD?
YES NO
(If “Yes,” complete Items
34B thru 34F as
applicable)

34B. MONTHLY
AMOUNT
(Include Medicare
Deduction)
VETERAN

$

SPOUSE

$

34C. BEGINNING DATE 34D. DATE YOU
EXPECT BENEFITS TO
BEGIN

113a
34E. WILL YOU OR
YOUR SPOUSE APPLY
FOR EITHER BENEFIT
DURING THE NEXT 12
MONTHS?
YES NO

34F. DATE OF
INTENTION TO APPLY
VETERAN

SPOUSE

35A. HAVE YOU OR YOUR SPOUSE APPLIED
FOR OR ARE YOU RECEIVING OR ENTITLED TO
RECEIVE ANNUITY OR RETIREMENT
BENEFITS OR ENDOWMENT INSURANCE
FROM ANY OTHER SOURCE?
YES NO
(If “Yes,” complete Items 35B thru 35E)
YOU MUST SIGN AND DATE THIS FORM AT
THE BOTTOM OF PAGE 10
VA FORM 21-526
APR 1993
35B. MONTHLY
AMOUNT
VETERAN

$

SPOUSE

$

35D. DATE OF
INTENTION TO APPLY

PAGE 9
35C. BEGINNING DATE

35E. SOURCE OF
BENEFITS

VETERAN’S AND DEPENDENTS’ MONTHLY
INCOME

114a
NOTE: For each source report gross monthly
amount, including deductions, for each family
member.
ITEM NO.

SOURCE OF
MONTHLY INCOME

36A

SOCIAL SECURITY

36B

U.S. CIVIL SERVICE

36C

U.S. RAILROAD
RETIREMENT

36D

MILITARY
RETIREMENT

36E

BLACK LUNG
BENEFIT

36F

SUPPLEMENTAL
SECURITY/PUBLIC
ASSIST.

36G

ALL OTHER
MONTHLY INCOME
(Specify Source)
AMOUNTS (If none, write “NONE” or “0”)

VETERAN

SPOUSE

$

$

NAME OF CHILDREN
$

$

$

115a
VETERAN’S AND DEPENDENTS’ OTHER
INCOME (If none, write “NONE” or “0”)
NOTE: Please provide the amount of annual income
or one-time nonrecurring income (specify source) for
the 12 month period preceding the date the claim is
filed with the Department of Veterans Affairs.
37A

TOTAL WAGES

37B

TOTAL INTEREST
AND DIVIDENDS

37C

ALL OTHER INCOME
(Specify Source)

NOTE: Please provide the amount of expected
annual income or one-time nonrecurring income
(specify source) for the 12 month period following the
date the claim is filed with the Department of
Veterans Affairs.
38A

TOTAL WAGES

38B

TOTAL INTEREST
AND DIVIDENDS

38C

ALL OTHER INCOME
(Specify Source)

116a
39A. GROSS AMOUNT
OF FINAL PAY
RECEIVED
39B. DATE FINAL PAY
RECEIVED

40. REMARKS (Identify
your statements by their
applicable item number.
If additional space is
required, attach separate
sheet and identify your
statements by their item
numbers)
Request s/c for
disabilities occurring
during active duty
service

NOTE: Items 41A through 41G should be completed
only if you are applying for nonservice-connected
pension.
INFORMATION CONCERNING MEDICAL,
LEGAL OR OTHER EXPENSES
NOTE: Family medical expenses actually paid by
you may be deductible from your income. Show the
amount of unreimbursed medical expenses you paid
for yourself or relatives you are under an obligation
to support. Also, show medical, legal or other
expenses you paid because of a disability for which
civilian disability benefits have been awarded. When
determining your income, we may be able to deduct
them from the disability benefits for the year in
which the expenses are paid. Do not include any
expenses for which you were reimbursed. Show the
Medicare deduction in line 1.
41A. AMOUNT
PAID BY YOU

41B. DATE
PAID

41C. PURPOSE
(Doctor’s fees,
hospital charges,
Attorney fees, etc.)

117a
Medicare (Part B)

41D. PAID TO (Name of
doctor, hospital,
pharmacy, Attorney, etc.)

41E. DISABILITY OR
RELATIONSHIP OF
PERSON FOR WHOM
EXPENSES PAID

SOCIAL SECURITY
ADMINISTRATION

41F. ARE YOU NOW A
PATIENT IN A
NURSING HOME?
YES NO
(If “Yes,” please complete
Item 41G)

41G. DOES MEDICAID
COVER ALL OR PART
OF YOUR NURSING
HOME COSTS?
YES NO
(If “Yes,” give the name
and address of the
nursing home in Item 40,
“Remarks”))

NOTE: Filing of this application constitutes a waiver
of military retired pay in the amount of any VA
compensation to which you may be entitled. See
instructions for Items 14A thru 14D inclusive,
Retired Pay.

118a
CERTIFICATION AND AUTHORIZATION FOR
RELEASE OF INFORMATION—I CERTIFY THAT
the foregoing statements are true and complete to
the best of my knowledge and belief. I CONSENT
THAT any physician, surgeon, dentist, or hospital
that has treated or examined me for any purpose, or
that I have consulted professionally, may furnish to
the Department of Veterans Affairs any information
about myself, and I waive any privilege which
renders such information confidential. DO YOU
WANT TO HAVE MEDICAL AND OTHER
INFORMATION ABOUT YOU INCLUDED IN THE
“PERSIAN GULF WAR VETERANS HEALTH
REGISTRY?” (See “GENERAL INSTRUCTIONS,”
paragraph K.) YES NO
42. SIGNATURE OF
CLAIMANT
SIGN HERE 
/s/ Robert M. Sellers

43. DATE SIGNED
2-26-96

WITNESSES TO SIGNATURE OF CLAIMANT IF
MADE BY “X” MARK
NOTE: A signature by mark must be witnessed by
two persons to whom the person making the
statement is personally known. The witnesses must
sign their names in Items 44A and 45A and type or
print their names and addresses in Items 44B and
45B.
44A. SIGNATURE OF
WITNESS

45A. SIGNATURE OF
WITNESS

44B. NAME AND
45B. NAME AND
ADDRESS OF WITNESS ADDRESS OF WITNESS
(Type or print)
(Type or print)

119a
PENALTY: The law provides severe penalties which
include fine or imprisonment, or both, for the willful
submission of any statement or evidence of a
material fact, knowing it to be false, or for the
fraudulent acceptance of any payment to which you
are not entitled.
PAGE 10

